1a
____________________
APPENDIX A
____________________
United States Court of Appeals
for the District of Columbia Circuit
Argued June 2, 2020

Decided August 31, 2020

No. 20-5056

IN RE: HILLARY RODHAM CLINTON AND
CHERYL MILLS, PETITIONERS
On Panel Rehearing
Of Petition for Writ of Mandamus
(No. 1:14-cv-01242)

Before: GRIFFITH, PILLARD and WILKINS, Circuit
Judges.
Opinion for the Court filed by Circuit Judge
WILKINS.
WILKINS, Circuit Judge: This petition arises from a
Freedom of Information Act (“FOIA”) case brought by

2a
Judicial Watch, Inc. against the U.S. Department of
State. See Judicial Watch, Inc. v. Dep’t of State, No.
1:14-cv-1242 (D.D.C. filed July 21, 2014). Petitioners
are former Secretary of State Hillary Rodham Clinton
(a third-party intervenor in the case), and Secretary
Clinton’s former Chief of Staff, Cheryl Mills (a
nonparty respondent in the case). On March 2, 2020,
the District Court granted Judicial Watch’s request to
depose each Petitioner on a limited set of topics. On
March 13, 2020, Secretary Clinton and Ms. Mills
petitioned this Court for a writ of mandamus to
prevent the ordered depositions. For the reasons
detailed herein, we grant the petition in part and
deny it in part – finding that although Secretary
Clinton meets all three requirements for mandamus,
Ms. Mills does not. See Cheney v. U.S. Dist. Court, 542
U.S. 367, 380 (2004).
I.
On May 13, 2014, Judicial Watch submitted a
FOIA request to the State Department for records in
the Office of the Secretary regarding Ambassador
Susan Rice’s September 16, 2012 television
appearances. The request sought:
Copies of any updates and/or talking
points given to Ambassador Rice by the
White House or any federal agency
concerning, regarding, or related to the
September 11, 2012 attack on the U.S.
consulate in Benghazi, Libya.

3a
Any and all records or communications
concerning, regarding, or relating to
talking points or updates on the
Benghazi attack given to Ambassador
Rice by the White House or any federal
agency.
Complaint at 2 ¶ 5, No. 1:14-cv-1242, ECF No. 1 (July
21, 2014) (lettering omitted). After the State
Department failed to timely respond, Judicial Watch
filed suit in the United States District Court for the
District of Columbia on July 21, 2014, and the case
was assigned to Judge Lamberth. See id. at ¶¶ 5-9.
The State Department produced four responsive
documents to Judicial Watch in November 2014 and
provided a draft Vaughn Index in December 2014,
Pl.’s Mot. for Status Conf. at 4 ¶ 5, No. 1:14-cv-1242,
ECF No. 12 (Mar. 16, 2015). Judicial Watch
subsequently requested a declaration describing the
Department’s search. See Third Joint Status Rep. at
2 ¶ 3(c), No. 1:14-cv-1242, ECF No. 16 (May 1, 2015).
In joint status reports filed on December 31, 2014 and
February 2, 2015, the parties informed the court that
they might be able to settle the case or narrow the
issues before the court, but that the State Department
would first conduct additional searches for responsive
documents by April 2015. See Joint Status Rep., No.
1:14-cv-1242, ECF No. 10 (Dec. 31, 2014); Joint Status
Rep., No. 1:14-cv-1242, ECF No. 11 (Feb. 2, 2015).
In early March 2015, Judicial Watch learned that
Secretary Clinton had used a private email server to
conduct official government business during her
tenure as Secretary of State. See Emergency Mot. at

4a
3 ¶ 3, No. 1:14-cv-1242, ECF No. 13 (Mar. 16, 2015).
And on August 21, 2015, it moved for limited
discovery related to the State Department’s
recordkeeping system during Secretary Clinton’s
tenure. See Mot. for Discovery at 6, No. 1:14-cv-1242,
ECF No. 22 (Aug. 21, 2015). Contemporaneously,
another district court judge, Judge Sullivan, was
supervising a separate FOIA case between the same
parties and considering similar discovery requests.
Judicial Watch, Inc. v. Dep’t of State, No. 1:13-cv-1363
(D.D.C. filed Sept. 10, 2013). In addition, the State
Department’s Inspector General, the FBI, and the
House Select Committee on Benghazi were
conducting independent investigations of Secretary
Clinton’s use of a private email server. As a result,
Judge Lamberth delayed consideration of Judicial
Watch’s discovery request. Mem. and Order at 2-3,
No. 1:14-cv-1242, ECF No. 39 (Mar. 29, 2016). Judge
Sullivan ultimately granted Judicial Watch’s request
for discovery on the use of the private email server,
ordered the disclosure of federal records from Ms.
Mills and Huma Abedin (Secretary Clinton’s former
Deputy Chief of Staff), and authorized Judicial Watch
to send interrogatories to Secretary Clinton and to
depose Ms. Mills, among others. Mem. Order at 13-14,
No. 13-cv-1363, ECF No. 73 (May 4, 2016).
On December 6, 2018, after the parties
substantially completed discovery before Judge
Sullivan and the government investigations had
concluded, Judge Lamberth ordered additional
discovery in this case. Mem. Op. at 1, 4-5, 9, No. 1:14cv-1242, ECF No. 54 (Dec. 6, 2018). Although
discovery in FOIA cases is rare, Judge Lamberth

5a
ordered the parties to develop a discovery plan
regarding whether Secretary Clinton’s “use of a
private email [server] while Secretary of State was an
intentional attempt to evade FOIA,” “whether the
State Department’s attempts to settle this case in late
2014 and early 2015 amounted to bad faith,” and
“whether State ha[d] adequately searched for records
responsive to Judicial Watch’s request.” Order, No.
1:14-cv-1242, ECF No. 55 (Dec. 6, 2018). On January
15, 2019, the District Court entered a discovery plan
permitting Judicial Watch to: depose “the State
Department,” several former government officials and
employees, and a former Clinton Foundation
employee; serve interrogatories on several other
government officials; obtain via interrogatories the
identities of individuals who conducted the search of
the records; and discover unredacted copies of various
relevant documents and any records related to the
State Department’s conclusion about the need to
continue searching for responsive records. Mem. Op.
and Order, No. 1:14-cv-1242, ECF No. 65 (Jan. 15,
2019). The District Court reserved a decision on
whether to permit Judicial Watch to depose
Petitioners, id. at 2, and Secretary Clinton
subsequently intervened, Mot. to Intervene, No. 1:14cv-1242, ECF No. 128 (Aug. 20, 2019); see also Order,
No. 1:14-cv-1242, ECF No. 129 (Aug. 21, 2019)
(granting the unopposed motion to intervene).
On March 2, 2020, after the January 15, 2019
round of discovery was substantially complete, the
District Court authorized yet another round of
discovery, including the depositions of Petitioners.
See Mem. Order, No. 1:14-cv-1242, ECF No. 161 (Mar.

6a
2, 2020). Although Judicial Watch had proposed a
broader inquiry, see Status Rep. at 13-15, No. 1:14-cv1242, ECF No. 131 (Aug. 21, 2019), the court limited
the scope of Secretary Clinton’s deposition to her
reasons for using a private server and her
understanding of the State Department’s recordsmanagement obligations, Mem. Order at 6-10, ECF
No. 161. The court also limited the scope of questions
regarding the 2012 attack in Benghazi to both
Petitioners’ knowledge of the existence of any emails,
documents, or text messages related to the attack. Id.
at 10-11.
On March 13, 2020, Secretary Clinton and Ms.
Mills filed a petition for writ of mandamus in this
Court, requesting an order “directing the district
court to deny Judicial Watch’s request to depose”
them. Pet. at 4. Pursuant to this Court’s order,
Judicial Watch and the State Department each filed
responses. 1
II.
The common-law writ of mandamus, codified at
28 U.S.C. § 1651(a), is one of “the most potent
Although the State Department does not support the petition
for mandamus before this Court, it opposed the motions to grant
discovery below, in relevant part. See Mem. in Opp., No. 1:14-cv1242, ECF No. 27 (Sept. 18, 2015); Tr. of Proc. at 19-37, No. 1:14cv-1242, ECF No. 53 (Oct. 16, 2018); Status Rep., No. 1:14-cv1242, ECF No. 133 (Aug. 21, 2019); Tr. of Proc. at 28-39, No. 1:14cv-1242, ECF No. 137 (Aug. 22, 2019); Status Rep., No. 1:14-cv1242, ECF No. 154 (Dec. 18, 2019); and Tr. of Proc. at 21-31, No.
1:14-cv-1242, ECF No. 156 (Dec. 19, 2019).
1

7a
weapons in the judicial arsenal,” see Will v. United
States, 389 U.S. 90, 107 (1967), and mandamus
against a lower court is a “drastic” remedy reserved
for “extraordinary causes,” Ex parte Fahey, 332 U.S.
258, 259-60 (1947). Mandamus lies only where the
familiar tripartite standard is met: (1) the petitioner
has “no other adequate means to attain the relief”; (2)
the petitioner has demonstrated a “clear and
indisputable” right to issuance of the writ; and (3) the
Court finds, “in the exercise of its discretion,” that
issuance of the writ is “appropriate under the
circumstances.” Cheney, 542 U.S. at 380-81. Although
these hurdles are demanding, they are “not
insuperable,” id. at 381, and a “clear abuse of
discretion” by a lower court can certainly justify
mandamus, Bankers Life & Cas. Co. v. Holland, 346
U.S. 379, 383 (1953).
Applying this standard, we find the petition as to
Secretary Clinton satisfies all three prongs, while the
petition as to Ms. Mills fails to satisfy the first. Since
the “three conditions must be satisfied before
[mandamus] may issue,” regardless of Ms. Mills’
petition’s merit on the other two inquiries, we are
bound to deny the writ and dismiss her petition. See
Cheney, 542 U.S. at 380 (citing Kerr v. U.S. Dist.
Court for N. Dist. of Cal., 426 U.S. 394, 403 (1976)).
A.
Under the first prong of Cheney, Secretary
Clinton and Ms. Mills must each have “no other
adequate means to attain the relief” they request on
mandamus. 542 U.S. at 380. Judicial Watch argues

8a
that the appropriate way for both Petitioners to
garner review of the discovery order is to disobey it,
be held in contempt, and then appeal that final order.
See Judicial Watch Resp. at 12-14. However, while
this is presently a viable path for Ms. Mills, a
nonparty respondent, it is not for Secretary Clinton
who has intervened and is a party in the case. See
Mot. to Intervene, ECF No. 128; Order, ECF No. 129.
It is true that “in the ordinary case, a litigant
dissatisfied with a district court’s discovery order
must disobey the order, be held in contempt of court,
and then appeal that contempt order on the ground
that the discovery order was an abuse of discretion.”
In re Kessler, 100 F.3d 1015, 1016 (D.C. Cir. 1996); see
also Church of Scientology of Cal. v. United States,
506 U.S. 9, 18 n.11 (1992); In re Papandreou, 139 F.3d
247, 250 (D.C. Cir. 1998). However, as we explained
in In re Sealed Case No. 98-3077, “the disobedience
and contempt route to appeal cannot be labeled an
adequate means of relief for a party-litigant.” 151
F.3d 1059, 1065 (D.C. Cir. 1998) (emphasis added); see
also In re City of New York, 607 F.3d 923, 934 (2d Cir.
2010) (same). In re Sealed Case No. 98-3077 raised the
concern – elided in cases cited by Judicial Watch such
as Kessler and Papandreau – that “[w]hile a criminal
contempt order issued against a party is considered a
final order and thus appealable forthwith under 28
U.S.C. § 1291 . . . a civil contempt order issued against
a party is typically deemed interlocutory and thus not
appealable under 28 U.S.C. § 1291[.]” 151 F.3d at
1064 (citations omitted); see also Byrd v. Reno, 180
F.3d 298, 302 (D.C. Cir. 1999) (noting that unlike a

9a
criminal contempt order, a civil contempt order is not
an appealable final order). Where, as here, a district
court has broad discretion to hold a party refusing to
comply with a discovery order in either civil or
criminal contempt, “‘a party who wishes to pursue the
disobedience and contempt path to appeal cannot
know whether the resulting contempt order will [in
fact] be appealable.’” In re Sealed Case No. 98-3077,
151 F.3d at 1065 (quoting 15B CHARLES ALAN
WRIGHT, ARTHUR R. MILLER, & EDWARD H.
COOPER,
FEDERAL
PRACTICE
AND
PROCEDURE § 3914.23 (2d ed. 1992)). And since, in
this case, potential contempt charges against
Secretary Clinton would arise during ongoing
litigation and not at the conclusion of the proceedings
when a civil contempt adjudication might be
appealable, this uncertainty is crucial. The discovery
order at issue arises out of a civil FOIA proceeding.
See Compl., ECF No. 1. Secretary Clinton, who is
properly characterized as a party in that civil
proceeding, simply cannot know ex ante whether
refusal to comply will result in a non-appealable civil
contempt order or an appealable criminal contempt
order. Thus, “forcing a party to go into contempt is not
an ‘adequate’ means of relief in these circumstances.”
See In re Kellogg Brown & Root, Inc., 756 F.3d 754,
761 (D.C. Cir. 2014).
The same regime, however, does not apply to Ms.
Mills, a nonparty respondent in the case. It is well
settled that “a nonparty can appeal an adjudication of
civil contempt[.]” 15B CHARLES ALAN WRIGHT,
ARTHUR R. MILLER, & EDWARD H. COOPER,
FEDERAL PRACTICE AND PROCEDURE § 3917

10a
(2d ed. 1992); see also U.S. Catholic Conference v.
Abortion Rights Mobilization, Inc., 487 U.S. 72, 76
(1988) (“The right of a nonparty to appeal an
adjudication of contempt cannot be questioned. The
order finding a nonparty witness in contempt is
appealable notwithstanding the absence of a final
judgment in the underlying action.”) (quoting United
States v. Ryan, 402 U.S. 530, 532 (1971) and
Cobbledick v. United States, 309 U.S. 323, 328 (1940));
Petroleos Mexicanos v. Crawford Enters., Inc., 826
F.2d 392, 398 (5th Cir. 1987); United States v.
Columbia Broad. Sys., 666 F.2d 364, 367 n.2 (9th Cir.
1982) (compiling cases). Since Ms. Mills could appeal
either a civil or a criminal contempt adjudication,
unlike Secretary Clinton she does have available an
“adequate means to attain the relief” and as such her
petition fails at prong one. Cheney, 542 U.S. at 380.
Petitioners argue that given the “congruence of
interests” between Ms. Mills and Secretary Clinton,
Ms. Mills might also somehow be prevented from
appealing a civil contempt adjudication. Pet’r Reply
at 3 n.1. However, this concern arises primarily in
cases where sanctions are imposed jointly and
severally upon both a party and a nonparty, requiring
the court to evaluate whether the nonparty can
appeal in a way that does not implicate the rights of
the party. See, e.g., Nat’l Abortion Fed’n v. Ctr. for
Med. Progress, 926 F.3d 534, 538-39 (9th Cir. 2019);
In re Coordinated Pretrial Proceedings in Petroleum
Prod. Antitrust Litig., 747 F.2d 1303, 1305 (9th Cir.
1984). But here, we are not faced with uncleavable
interests. Ms. Mills could directly appeal a civil
contempt citation and obtain relief without impacting

11a
whether Secretary Clinton must sit for her separate
deposition.
Finally, considering the burden the depositions
would place on Petitioners given their scope and
complete irrelevance to this FOIA proceeding
(discussed in further detail infra at subsections B and
C), we need not reach Petitioners’ and Respondent’s
arguments regarding how Secretary Clinton and Ms.
Mills’ status as former Executive Branch officials
might play into our analysis. See Pet. at 23-32;
Judicial Watch Resp. at 12-14.
B.
Next, we turn to the second prong of the Cheney
test, asking whether the District Court’s Order
granting Judicial Watch’s request to depose
Petitioners constituted a “clear and indisputable”
error. 542 U.S. at 381. Petitioners can carry their
burden in this inquiry if the challenged order
constitutes a “clear abuse of discretion.” Id. at 380.
Although a district court has “broad discretion to
manage the scope of discovery” in FOIA cases,
SafeCard Servs., Inc. v. SEC, 926 F.2d 1197, 1200
(D.C. Cir. 1991), we find the District Court clearly
abused its discretion by failing to meet its obligations
under Rule 26 of the Federal Rules of Civil Procedure,
by improperly engaging in a Federal Records Act-like
inquiry in this FOIA case, and by ordering further
discovery without addressing this Court’s recent
precedent potentially foreclosing any rationale for
said discovery.

12a
In the vast majority of FOIA cases, after providing
responsive documents, the agency establishes the
adequacy of its search by submitting a detailed and
nonconclusory affidavit on a motion for summary
judgment. Brayton v. Office of the U.S. Trade
Representative, 641 F.3d 521, 527 (D.C. Cir. 2011); see
also SafeCard Servs., 926 F.2d at 1200. These
affidavits are to be accorded a presumption of good
faith and cannot be rebutted by “purely speculative
claims about the existence and discoverability of other
documents.” Ground Saucer Watch, Inc. v. CIA, 692
F.2d 770, 771 (D.C. Cir. 1981). Although, as a general
rule, discovery in a FOIA case is “rare,” Baker &
Hostetler LLP v. U.S. Dep’t of Commerce, 473 F.3d
312, 318 (D.C. Cir. 2006) (quoting Schrecker v. U.S.
Dep’t of Justice, 217 F. Supp. 2d 29, 35 (D.D.C. 2002)),
courts may order limited discovery where there is
evidence – either at the affidavit stage or (in rarer
cases) before – that the agency acted in bad faith in
conducting the search, see Goland v. CIA, 607 F.2d
339, 355 (D.C. Cir. 1978) (affirming the district court’s
finding that plaintiff had not made a sufficient
showing of bad faith, so summary judgment without
discovery was warranted).
It is this bad-faith hook that the District Court
used to justify several rounds of discovery in this case.
In March 2016 the District Court authorized
discovery into whether the State Department’s
attempts to settle the FOIA case in late 2014 and
early 2015 – before Secretary Clinton’s use of a
private server became public knowledge – amounted
to bad faith. Memo. and Order at 1-2, ECF No. 39; see
also Memo. and Order at 7, ECF No. 65. Judge

13a
Lamberth explained that given recent developments,
the case had “expanded to question the motives
behind Clinton’s private email use while Secretary,
and behind the government’s conduct in this
litigation.” Memo. and Order at 1, ECF No. 65. In its
March 2, 2020 order authorizing yet more discovery –
including the depositions at issue here – the District
Court again acknowledged that discovery in FOIA
cases is “rare” but reminded the parties of its view
that “it was State’s mishandling of this case – which
was either the result of bureaucratic incompetence or
motivated by bad faith – that opened discovery in the
first place.” Memo. Order at 12, ECF No. 161.
However, in finding suspicions of bad faith by the
State Department opened the door for these farreaching depositions of Petitioners, the District Court
clearly abused its discretion in at least three ways.
First, the District Court abused its discretion by
failing to “satisfy[] its Rule 26 obligation.” AF
Holdings, LLC v. Does 1-1058, 752 F.3d 990, 995 (D.C.
Cir. 2014). The mere suspicion of bad faith on the part
of the government cannot be used as a dragnet to
authorize voluminous discovery that is irrelevant to
the remaining issues in a case. A district court’s
discretion to order discovery, although broad, is
clearly “cabined by Rule 26(b)(1)’s general
requirements,” id. at 994, which allow parties to
discover “any nonprivileged matter that is relevant to
[a] claim or defense and proportional to the needs of
the case,” 2 FED. R. CIV. P. 26(b)(1); see also Food Lion
At the time AF Holdings was decided, Rule 26 required “a
discovery order be ‘[f]or good cause’ and relate to a ‘matter
relevant to the subject matter involved in the action.’” 752 F.3d

2

14a
v. United Food & Commercial Workers Int’l Union,
103 F.3d 1007, 1012 (D.C. Cir. 1997) (“[N]o one would
suggest that discovery should be allowed of
information that has no conceivable bearing on the
case.”
(internal
quotation
marks
omitted));
Oppenheimer Fund, Inc. v. Sanders, 437 U.S. 340,
352, n.17 (1978) (concluding that plaintiffs sought
information without “any bearing . . . on issues in the
case” and noting that “when the purpose of a
discovery request is to gather information for use in
proceedings other than the pending suit, discovery
properly is denied”).
Here, the District Court ordered Secretary
Clinton’s deposition primarily to probe her motives
for using a private email server and her
understanding of the State Department’s recordsmanagement obligations. See Mem. Order at 10, ECF
No. 161. However, neither of these topics is relevant
at 995 (quoting FED. R. CIV. P. 26(b)(1) (2000)). However, in the
2015 Amendments, those portions of Rule 26 were removed and
the Rule was narrowed to only allow discovery of any
“nonprivileged matter that is relevant to any party’s claim or
defense and proportional to the needs of the case[.]” FED. R. CIV.
P. 26(b)(1) (2015) (emphasis added); see also id. Advisory
committee’s note to the 2015 amendment (“The amendment
deletes the former provision authorizing the court, for good
cause, to order discovery of any matter relevant to the subject
matter involved in the action.”). Explaining that the “for good
cause” and “any matter relevant to the subject matter” language
was “rarely invoked,” the Committee noted that these and other
changes were made to “guard against redundant or
disproportionate discovery.” Id. This change only strengthens
Petitioners’ argument that the District Court abused its
discretion in ordering these depositions.

15a
to the only outstanding issue in this FOIA litigation –
whether the State Department has conducted an
adequate search for talking points provided to
Ambassador Rice following the September 11, 2012
attack in Benghazi, or for any communications or
records related to those specific talking points. See
Compl. at ¶ 5, ECF No. 1. The proposed inquiries are
not, as Judicial Watch insists, “vital to determining
the adequacy of the search for records at issue in [its]
FOIA request,” Pl.’s Reply at 10, No. 1:14-cv-1242,
ECF No. 144 (Oct. 3, 2019), and we find there is little
reason to believe that the information sought will be
relevant to a claim or defense as required by Rule 26.
See AF Holdings, 752 F.3d at 995 (finding discovery
improper where the information sought would not
meet the Rule 26 standard and would “be of little use”
in the lawsuit).
The District Court has impermissibly ballooned
the scope of its inquiry into allegations of bad faith to
encompass a continued probe of Secretary Clinton’s
state of mind surrounding actions taken years before
the at-issue searches were conducted by the State
Department. Secretary Clinton has already answered
interrogatories from Judicial Watch on these very
questions in the case before Judge Sullivan,
explaining the sole reason she used the private
account was for “convenience.” Resp. to Order at 3,
No. 1:14-cv-1242, ECF No. 143 (Sept. 23, 2019). 3 But
See Pet. at 27-28 (citing Resp. to Order at Ex. A, ECF No. 143
(Interrogatory 7, inquiring about the reasons why Secretary
Clinton used a private email account; Interrogatories 4, 5, 6, and
20 asking about the process by which she made this decision; and
Interrogatories 7, 8, and 9, inquiring whether FOIA or other
3

16a
more importantly, even if a deposition of Secretary
Clinton were to somehow shake some novel
explanation loose after all these years, this new
information simply would have no effect on the rights
of the parties in this FOIA case, making it “an
inappropriate avenue for additional discovery.”
Status Rep. at 5, ECF No. 133. As the Department of
Justice argued below:
Even if this Court found that Secretary
Clinton used private email with the
specific intent of evading FOIA
obligations, Plaintiff has already
received the only relief such a finding
would (arguably) make available: State’s
recovery, search, and processing of any
records held by the former Secretary,
including records that were not in the
possession, custody, or control of State at
the time the FOIA request was filed or
the original searches were conducted.
Id. Discovery in FOIA cases is not a punishment, and
the district court has no basis to order further inquiry
into Secretary Clinton’s state of mind, which could
only conceivably result in relief Judicial Watch has
already received – discovery. See Baker & Hostetler,
473 F.3d at 318. Furthermore, a bad-faith inquiry in
a FOIA context is only relevant as it goes to the
actions of the individuals who conducted the search.
See, e.g., Ground Saucer Watch, 692 F.2d at 771-72
recordkeeping laws played any role in her decision to use a
private server)).

17a
(reviewing accusations of bad faith on the part of the
CIA stemming from how officials instructed
employees to conduct searches, how they construed
the nature and scope of the FOIA request, and the
failure
to
produce
certain
later-uncovered
documents). Since there is no evidence Secretary
Clinton was involved in running the instant searches
– conducted years after she left the State Department
– and since she has turned over all records in her
possession, see Status Rep. at 6, ECF No. 133, the
proposed deposition topics are completely attenuated
from any relevant issue in this case.
As to Ms. Mills, who already testified for seven
hours in the case before Judge Sullivan, including on
Secretary Clinton’s use of a private email and FOIA,
Resp. to Order at 1, No. 1:14-cv-1242, ECF No. 142
(Sept. 23, 2019), there is no new information that
justifies a duplicative inquiry that is also irrelevant
to the remaining issues in the case. See Mot. for
Discovery at 4, ECF No. 22 (Judicial Watch noting,
nine months before Ms. Mills’ deposition, its
awareness of some 31,830 emails deemed private by
Secretary Clinton). Ms. Mills was no longer employed
by the State Department when these FOIA searches
were conducted, and the District Court’s general
belief that discovery was appropriate because the
State Department “mishandl[ed] this case,” Mem.
Order at 1, ECF No. 161, has no link to a far-reaching
deposition of Ms. Mills.
Second, the District Court abused its discretion by
misapplying the relevant legal standard for a FOIA
search. It is elementary that an agency responding to

18a
a FOIA request is simply required to “conduct[] a
‘search reasonably calculated to uncover all relevant
documents.’” Steinberg v. U.S. Dep’t of Justice, 23 F.3d
548, 551 (D.C. Cir. 1994) (quoting Weisberg v. Dep’t of
Justice, 745 F.2d 1476, 1485 (D.C. Cir. 1984))
(emphasis added). Unlike the Federal Records Act –
which requires federal agencies to protect against the
removal or loss of records, 44 U.S.C. § 3105, and
allows certain parties to bring suit to compel
enforcement action to recover unlawfully removed or
destroyed documents, id. § 3106(a); see also Judicial
Watch, Inc. v. Pompeo, 744 F. App’x 3 (D.C. Cir. 2018)
– the appropriate inquiry under FOIA is much more
limited. In a FOIA case, a district court is not tasked
with uncovering “whether there might exist any other
documents possibly responsive to the request,” but
instead, asks only whether “the search for [the
requested] documents was adequate.” Weisberg, 745
F.2d at 1485 (citations omitted).
Here, rather than evaluating whether the State
Department’s search for documents related to
Ambassador Rice’s Benghazi talking points was
adequate, the District Court has instead authorized
an improper Federal Records Act-like inquiry to
uncover
purely
hypothetical
emails
or
communications. Ground Saucer Watch, 692 F.2d at
772 (explaining that “unadorned speculation” cannot
compel further discovery). The District Court
attempted to justify the instant depositions, in part,
because
approximately
thirty
“previously
undisclosed” emails were produced by the FBI in
unrelated litigation and because it felt the State
Department “failed to fully explain the new emails’

19a
origins[.]” Memo. Order at 1-2, ECF No. 161.
However, these documents – all of which Judicial
Watch has conceded are nonresponsive to its FOIA
request, see Tr. of Proc. at 35, ECF No. 156, and which
it seems were in fact in the State Department’s
possession but were simply not searched in response
to this narrow FOIA request, Oral Arg. Tr. at 52-53, –
do not call into question the adequacy of the search or
justify this wide-ranging and intrusive discovery.
It is well established that the reasonableness of a
FOIA search does not turn on “whether it actually
uncovered every document extant,” SafeCard Servs.,
926 F.2d at 1201, and that the failure of an agency to
turn up a specific document does not alone render a
search inadequate, Iturralde v. Comptroller of
Currency, 315 F.3d 311, 315 (D.C. Cir. 2003). In fact,
this Court has stated that the belated disclosure of
even responsive documents does not necessarily
undermine the adequacy of an agency’s search. See,
e.g., Goland, 607 F.2d at 374; Ground Saucer Watch,
692 F.2d at 772. But here, the District Court
determined that the discovery of nearly thirty
nonresponsive documents that were already in the
State Department’s possession justified the
depositions of persons who were not even involved in
the search. We disagree and point the District Court
back to the sole, narrow inquiry before it – whether
the State Department made “a good faith effort to
conduct a search for the requested records, using
methods which can be reasonably expected to produce
the information requested.” Nation Magazine v. U.S.
Customs Serv., 71 F.3d 885, 890 (D.C. Cir. 1995)
(quotation marks omitted).

20a
Third, the District Court failed to properly
consider the central factor in this FOIA case –
whether the agency’s search was reasonably
calculated to discover the requested documents – by
disregarding this Court’s recent decision in Pompeo,
744 F. App’x at 4. The District Court premised its
approval of Petitioners’ depositions partially on its
belief that the State Department had “failed to
persuade the Court that all of Secretary Clinton’s
recoverable emails have been located.” Mem. Order at
2, ECF 161. However, it made this proclamation
without addressing this Court’s decision in a recent
Federal Records Act case between the same parties
affirming that the State Department “ha[d] already
taken every reasonable action to retrieve any
remaining [Clinton] emails.” Pompeo, 744 F. App’x at
4. In Pompeo, we found that “no imaginable
enforcement action” could turn up additional emails
and stated that it was “both fanciful and
unpersuasive” to claim that the State Department
had not done enough to retrieve emails from persons
outside the agency with whom the Secretary may
have corresponded. Id. Although Pompeo did not
address this specific search for Ambassador Rice’s
Benghazi talking points, its language is clear – the
State Department has exhausted every reasonable
means to retrieve all of Secretary Clinton’s
recoverable emails. Id. Although we decline to adopt
Petitioners’ characterization of this as a “mootness”
issue, see Pet. at 19-22, we find the District Court did
err by failing to address our findings in Pompeo and
simply insisting Petitioners’ depositions would
somehow squeeze water out of the rock. If a search for

21a
additional Clinton emails has been exhausted in a
Federal Records Act case – under a statutory scheme
that does provide a process for the recovery or
uncovering of removed records – the grounds for
continued foraging in the more limited context of a
FOIA case are fatally unclear.
C.
This brings us to the third prong of the Cheney
standard, which asks if the Court, “in the exercise of
its discretion, [is] satisfied” that issuance of the writ
“is appropriate under the circumstances.” 542 U.S. at
381. Applying this “relatively broad and amorphous”
standard, In re Kellogg Brown & Root, Inc., 756 F.3d
at 762, we find the totality of circumstances merits
granting the writ.
We observe, at the outset, that although Judicial
Watch devotes considerable attention to the first two
prongs of Cheney, see Judicial Watch Resp. at 11-24,
it “offers no reason, nor can we detect one, why we
should withhold issuance of the writ if [Secretary
Clinton] is otherwise entitled to it.” In re Mohammad,
866 F.3d 473, 475 (D.C. Cir. 2017) (per curiam); see
generally Judicial Watch Resp. Because the
mandamus prongs “must be satisfied before [the writ]
may issue,” Cheney, 542 U.S. at 380 (citing Kerr, 426
U.S. at 403), Judicial Watch’s failure to address the
third prong is not dispositive. See id. at 381 (“[E]ven
if the first two prerequisites have been met, the
issuing court, in the exercise of its discretion, must be
satisfied that the writ is appropriate under the
circumstances.”) (citing Kerr, 426 U.S. at 403). Our

22a
own review of the issue leads us to conclude that
Cheney’s third prong is satisfied. In light of the
importance of the congressional aims animating
FOIA, and in order to forestall future, similar errors
by district courts that would hamper the achievement
of those aims, we find that the totality of the
circumstances counsels us to hold, in the exercise of
our discretion, that mandamus is appropriate under
these circumstances.
While “[i]n the ‘normal course, mandamus is not
available to review a discovery order’, . . . .
[m]andamus is appropriate [] where review of an
order ‘after final judgment is obviously not
adequate.’” In re Al Baluchi, 952 F.3d 363, 368 (D.C.
Cir. 2020) (quoting In re Executive Office of President,
215 F.3d 20, 23 (D.C. Cir. 2000)) (emphasis added)
(alteration omitted). In this vein, courts have found
mandamus appropriate in the discovery context
where necessary to correct an error with potentially
far-reaching consequences. See, e.g., In re Kellogg
Brown & Root, Inc., 756 F.3d at 763 (“This Court has
long recognized that mandamus can be appropriate to
‘forestall future error in trial courts’ and ‘eliminate
uncertainty’ in important areas of law.” (quoting
Colonial Times, Inc. v. Gasch, 509 F.2d 517, 524 (D.C.
Cir. 1975)); In re Sims, 534 F.3d 117, 128-29 (2d Cir.
2008) (mandamus may be appropriate to review
discovery
orders
involving
privilege
where
“immediate resolution will avoid the development of
discovery practices or doctrine undermining the
privilege”); Colonial Times, Inc., 509 F.2d at 524
(mandamus may be appropriate where resolution of
discovery issue will “add importantly to the efficient

23a
administration of justice”); Sanderson v. Winner, 507
F.2d 477, 479 (10th Cir. 1974) (per curiam) (granting
mandamus to vacate discovery order where district
court’s “decision [w]as an unwarranted extension” of
Supreme Court precedent, “which extension would
limit and curtail” a federal rule “in a manner never
contemplated”).
These considerations counsel the issuance of the
writ in the instant circumstances. As already noted,
the District Court’s Order reflects a deeply flawed
view of both FOIA and Rule 26, with the result that
the contemplated discovery has traveled far afield
from the narrow issue in this FOIA case – the
adequacy of the State Department’s search for
documents relating to talking points given to
Ambassador Rice for a single day’s television
appearances. Compl. at ¶ 5, ECF No. 1 (emphasis
added); see also Iturralde, 315 F.3d at 315
(emphasizing that, under FOIA, the adequacy of the
search is measured “by the appropriateness of the
methods used,” “not by the fruits of the search”).
While the first rounds of discovery may have, as the
District Court stated, prompted “more questions than
answers,” Mem. Order at 1, ECF No. 161, a court may
not order discovery to probe any subject that piques
curiosity, see FED. R. CIV. P. 26(b)(1), especially in
the circumscribed posture of a FOIA case. Here, the
FOIA request is for Benghazi-related documents
actually given to Ambassador Rice, but the
depositions were to ask why Secretary Clinton set up
a private server years earlier and with whom she
generally corresponded. None of this bears on the

24a
question of what documents, if any, were given to
Ambassador Rice about the Benghazi attack.
Illustrating the inappropriateness of the ordered
discovery, the District Court authorized Judicial
Watch to depose Secretary Clinton and Ms. Mills
about “their knowledge of the existence of any emails,
documents, or text messages related to the Benghazi
attack.” Mem. Order at 10, ECF No. 161. However,
the only basis for this request that Judicial Watch
now points to is a passage in one of the nearly thirty
nonresponsive emails discussed above, which
suggests that Huma Abedin sent Secretary Clinton
texts about the latter’s schedule. See Judicial Watch
App’x at 15. These unrelated text messages, although
potentially piquing the court’s curiosity, simply
cannot justify the requested depositions. First, during
the events in question, electronic messages (such as
text messages), were not considered federal agency
records under the Federal Records Act. See 44 U.S.C.
§ 2911(c)(1) (amending the Act in November 2014 to
include “electronic messages” or “electronic
messaging systems that are used for purposes of
communicating between individuals[]”); see also
Guidance on Managing Electronic Messages, Bulletin
2015-02 (July 29, 2015) (setting forth new records
management requirements that apply to electronic
messages,
including
text
messaging),
https://www.archives.gov/recordsmgmt/bulletins/2015/2015-02.html. While this quirk
of timing may not bar the State Department from
searching for pre-2014 text message records in
response to another FOIA request, Judicial Watch’s
“mere speculation” about the existence of relevant

25a
text messages in this case is certainly insufficient to
compel further discovery here. Wilbur v. CIA, 355
F.3d 675, 678 (D.C. Cir. 2004) (per curiam) (“[M]ere
speculation that as yet uncovered documents might
exist[] does not undermine the determination that the
agency [has] conducted an adequate search for the
requested records.”).
Second, this is not a case of a government agency
refusing to provide records from a personal email that
is the subject of a direct FOIA request, see, e.g.,
Competitive Enter. Inst. v. Office of Sci. & Tech.
Policy, 827 F.3d 145, 146-47 (D.C. Cir. 2016), or
arguing that certain records are not in its control and
as such cannot be produced, see, e.g., Kissinger v.
Reporters Comm. for Freedom of the Press, 445 U.S.
136, 151-57 (1980). Judicial Watch has conceded that
it is not alleging a “cover-up” by either Secretary
Clinton or Ms. Mills, see Oral Arg. Tr. at 46, and there
is no evidence or even an accusation that Secretary
Clinton or Ms. Mills communicated about the specific
issue at hand – Ambassador Rice’s talking points or
their creation – in a method that would not have been
captured by the State Department’s search to date.
For example, in opposing the State Department’s
motion for summary judgment, Judicial Watch filed a
Rule 56(d) declaration specifying the additional
discovery it sought and made no mention of the
prospect of outstanding text messages or other
electronic communications. Mot. for Discovery at 8,
ECF No. 22. Instead, Judicial Watch specified that it
sought “limited” discovery, focusing exclusively on
email records. Id. at 1. The closest Judicial Watch
came to raising the prospect of text messages was to

26a
request “[i]nformation about what electronic and
computing devices (BlackBerrys, iPhones, iPads,
laptops, desktops, etc.) were used by key officials,
their locations and Defendant’s ability to search for
potentially responsive records” – devices that have
already been turned over to the State Department
and examined. Id. at 8; see also Pompeo, 744 F. App’x
at 4 (detailing the FBI’s search of Secretary Clinton’s
devices). Again focusing on email records, Judicial
Watch elaborated that it sought those devices because
it believed that Secretary Clinton may have used “a
Blackberry and iPad as Secretary for her government
email.” Mot. for Discovery at 8 n. 15, ECF No. 22.
“To be sure, there are limits to the impact of a
single district court ruling . . . . But prudent counsel
monitor court decisions closely and adapt their
practices in response.” In re Kellogg Brown & Root,
Inc., 756 F.3d at 762-63. If left unchecked, the
premise that such wide-ranging discovery should and
will be countenanced under FOIA “would extend the
FOIA to an essentially limitless number of materials
. . . . The Act was not intended to be accorded such a
reach.” Wolfe v. Dep’t of Health & Human Servs., 711
F.2d 1077, 1081 (D.C. Cir. 1983). Such an
“unwarranted extension” of FOIA, certainly “never
contemplated” by Congress, see Sanderson, 507 F.2d
at 479, would threaten an exponential increase in
putative FOIA suits seeking commensurate levels of
irrelevant and potentially harassing discovery.
FOIA represents a “congressional commitment to
transparency,” Judicial Watch, Inc. v. Dep’t of
Defense, 913 F.3d 1106, 1109 (D.C. Cir. 2019) – a

27a
commitment whose fulfillment would be substantially
hampered were judicial and other governmental
resources devoted not to the iterated topics of FOIA
requests and suits, but to free-ranging and
perpetually evolving inquiries for which FOIA
requests served as mere jumping-off points. The
important aims at the core of FOIA therefore counsel
us not to let the instant error lie. Cf. Colonial Times,
Inc., 509 F.2d at 524 (mandamus may be appropriate
to “add importantly to the efficient administration of
justice”). In the face of the District Court’s “clear
abuse of discretion” in ordering this discovery, we find
the writ is “appropriately issued,” Schlagenhauf v.
Holder, 379 U.S. 104, 110 (1964), to “forestall future
error in trial courts” considering similarly attenuated
discovery requests under FOIA, see Colonial Times,
Inc., 509 F.2d at 524.
The circumstances under which this particular
discovery order arises only buttress our finding of the
appropriateness of mandamus. Judicial Watch does
not in fact want for the information it purports to seek
and has already been afforded extensive discovery
related to the proposed deposition topics. In this FOIA
case alone, it has taken eighteen depositions and
propounded more than four times the presumptive
maximum number of interrogatories. See Status Rep.
at 1-3, No. 154; FED. R. CIV. P. 33(a)(1) (“Unless
otherwise stipulated or ordered by the court, a party
may serve on any other party no more than 25 written
interrogatories[.]”). In its parallel FOIA case before
Judge Sullivan, Judicial Watch received sworn
interrogatories from Secretary Clinton herself as well
as a lengthy deposition of Ms. Mills and seven other

28a
witnesses, traversing the proposed deposition topics
and resulting in the identification of no additional
records responsive to the instant FOIA request. Mem.
Order at 13-14, No. 13-cv-1363, ECF No. 73 (May 4,
2016). As discovery progressed, Judge Sullivan
invited Judicial Watch to seek leave to serve even
more interrogatories if there were “follow up
questions” it had been “unable to anticipate,” Mem.
Op. at 18-19, No. 1:13-cv-1363, ECF No. 124 (Aug. 19,
2016), an avenue Judicial Watch did not pursue.
Judicial Watch also has available to it a
voluminous public record about the proposed
deposition topics. As noted, several executive agencies
and a House Select Committee have conducted
inquiries into Secretary Clinton’s use of a private
email server and made their findings public. 4
Secretary Clinton also provided eleven hours of public
testimony before the House Select Committee, see The
See Pet. at 26 n.5 (citing U.S. Department of State, Office of
Inspector General, Evaluation of the Department of State’s FOIA
Processes for Requests Involving the Office of the Secretary (Jan.
2016), https://www.stateoig.gov/system/files/esp-16-01.pdf; U.S.
Department of State, Office of Inspector General, Office of the
Secretary: Evaluation of Email Records Management and
Cybersecurity
Requirements
(May
2016),
https://fas.org/sgp/othergov/state-oig-email.pdf;
U.S.
Department of Justice, Office of Inspector General, A Review of
Various Actions by the Federal Bureau of Investigation and
Department of Justice in Advance of the 2016 Election (June
2018), https://www.justice.gov/file/1071991/download; House of
Representatives Select Committee on Benghazi, Final Report of
the Select Committee on the Events Surrounding the 2012
Terrorist Attack in Benghazi, H.R. Rep. No. 114-848 (2016),
https://www.congress.gov/congressionalreport/114thcongress/house-report/848/1).
4

29a
Select Committee on Benghazi, Hearing 4 – Former
Secretary of State Hillary Clinton (Oct. 22, 2015),
https://archives-benghazirepublicansoversight.house.gov/hearings/hearing-4, and has
answered countless media inquiries on the matter.
These facts underscore both the impropriety of the
District Court’s Order and the appropriateness of
turning the page on the issue. 5
CONCLUSION
For the reasons set forth above, we grant the
petition for mandamus as to Secretary Clinton, deny
it as to Ms. Mills and dismiss Ms. Mills’ petition.
So ordered.

Especially in light of Judicial Watch’s present access to
extensive information responsive to its proposed deposition
topics, the deposition of Secretary Clinton, if allowed to proceed,
at best seems likely to stray into topics utterly unconnected with
the instant FOIA suit, and at worst could be used as a vehicle for
harassment or embarrassment. We refrain from opining further
on these topics except to observe that neither path can be
squared with the dictates of either FOIA or Rule 26.

5

30a
United States Court of Appeals
for the District of Columbia Circuit
No. 20-5056

September Term, 2019

Filed On: August 31, 2020

IN RE: HILLARY RODHAM CLINTON AND
CHERYL MILLS,
PETITIONERS
Before: GRIFFITH, PILLARD and WILKINS, Circuit
Judges.
ORDER
On the court’s own motion, it is
ORDERED that this case be reheard by the panel. It
is
FURTHER ORDERED that the opinion and order
issued on August 14, 2020, be vacated. It is
FURTHER ORDERED that the Clerk be directed to
issue a new opinion and order.
Per Curiam

31a
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

32a
United States Court of Appeals
for the District of Columbia Circuit
No. 20-5056

September Term, 2019

Filed On: August 31, 2020
IN RE: HILLARY RODHAM CLINTON AND
CHERYL MILLS,
PETITIONERS
Before: GRIFFITH, PILLARD and WILKINS, Circuit
Judges.
ORDER
Upon consideration of the petition for writ of
mandamus, the responses thereto, the reply, and the
argument by counsel, it is
ORDERED that the petition for writ of mandamus
be granted as to Secretary Clinton, be denied as to Ms.
Mills, and Ms. Mills’ petition is hereby dismissed, for
the reasons stated in the opinion issued herein this
date.
Per Curiam

33a
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk
Opinion for the court filed by Circuit Judge Wilkins.

34a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Case No. 14-1242
____________________________
Judicial Watch, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
U.S. Department of State,
)
)
Defendant.
)
____________________________ )
MEMORANDUM ORDER
On December 6, 2018, the Court ordered
discovery into three main areas: (a) whether
Secretary Clinton’s use of a private email while
Secretary of State was an intentional attempt to
evade FOIA; (b) whether the State Department’s
attempts to settle this case in late 2014 and early
2015 amounted to bad faith; and (c) whether State has
adequately searched for records responsive to Judicial
Watch’s request. Although discovery in FOIA cases is
rare, the Court again reminds the government that it
was State’s mishandling of this case – which was
either the result of bureaucratic incompetence or
motivated by bad faith – that opened discovery in the
first place.
Discovery up until this point has brought to light

35a
a noteworthy amount of relevant information, but
Judicial Watch requests an additional round of
discovery, and understandably so. With each passing
round of discovery, the Court is left with more
questions than answers. What’s more, during the
December 19, 2019, status conference, Judicial Watch
disclosed that the FBI recently produced
approximately thirty previously undisclosed Clinton
emails. State failed to fully explain the new emails’
origins when the Court directly questioned where
they came from. 6
Furthermore, State has not represented to the
Court that the private emails of State’s former
employees who corresponded with Secretary Clinton
have been searched for additional Clinton emails.
State has thus failed to persuade the Court that all of
Secretary Clinton's recoverable emails have been
located. This is unacceptable.
State asks the Court to close discovery and to
move this case towards dispositive motions and an
eventual resolution. But there is still more to learn.
Even though many important questions remain
On February 12, 2020, Judicial Watch informed the Court that
a recently obtained Clinton email-produced in an unrelated
FOIA case involving State-strongly suggests that Secretary
Clinton and her Deputy Chief of Staff, Huma Abedin, conducted
State Department business via text messaging as well. Pl.’s
Notice Suppl. Information 1, ECF No. 160. The government has
not provided any information about whether such text messages
were searched pursuant to FOIA.
6

36a
unanswered, the Justice Department inexplicably
still takes the position that the Court should close
discovery and rule on dispositive motions. The Court
is especially troubled by this. To argue that the Court
now has enough information to determine whether
State conducted an adequate search is preposterous,
especially when considering State’s deficient
representations regarding the existence of additional
Clinton emails. Instead, the Court will authorize a
new round of discovery as follows.
Brett Gittleson and Yvette Jacks
Mr. Gittleson was the Director of the Office of the
Secretary, the Executive Secretariat’s Information
Resource Management (hereinafter “S/ES-IRM”) in
2013 and 2014. Pl.’s Status Report 2, ECF No. 152.
That office was charged with providing technical
support-including email management-to the Office of
the Secretary during Secretary Clinton’s years at the
helm.
S/ES-IRMOfficialDep.11:17-12:6;
14:116:16,ECFNo.152-1. In late 2012 or early 2013, Mr.
Gittleson became the director of S/ES-IRM, and in
April or May 2013, he discussed Secretary Clinton’s
email use with Gene Smilansky, an attorney in the
Office of the Legal Advisor. Pl.’s Status Report 2. Mr.
Smilansky had experience working on FOIA lawsuits,
including one related to Secretary Clinton’s emails.
Id. at 3.
Ms. Jacks was a Deputy Director of S/ES-IRM
from 2010 to 2015 and assisted with the
troubleshooting of Secretary Clinton’s private server
while in that role. Id at 3--4; S/ES-IRM Official Dep.

37a
93:5-13. During Tasha Thian’s deposition, Ms. Thian
identified Ms. Jacks as an employee who maintained
the list of gatekeepers for Secretary Clinton’s
communications. Thian Dep. 125: 17-126:2, ECF No.
152-3. Ms. Thian also testified to something
troubling–that several S/ES-IRM employees may
have intentionally withheld information about
Secretary Clinton’s email arrangements. Id at 151:18152:15.
Judicial Watch seeks to depose Mr. Gittleson and
Ms. Jacks because they may have relevant knowledge
of Secretary Clinton’s email use. See Pl.’s Status
Report 2-4. State argues that any further discovery
would be cumulative or irrelevant. See Def.’s Status
Report 5-7, ECF No. 154. The Court agrees with
Judicial Watch and believes these two former
employees may offer new and relevant testimony. Mr.
Gittleson and Ms. Jacks may be questioned-within
the parameters set forth in the Court’s December 6,
2018, memorandum opinion and order authorizing
discovery-about their knowledge of Secretary
Clinton’s email use and any other non-privileged
conversations pertaining to her email use.
Accordingly, the Court GRANTS Judicial Watch’s
requests to depose Mr. Gittleson and Ms. Jacks.
Paul Combetta
Mr. Combetta is an IT specialist who was involved
with the transfer and deletion of Secretary Clinton’s
emails. See Pl.’s Status Report 4-5. Judicial Watch
seeks to depose Mr. Combetta to learn more about the
archiving, existence, and deletion of any of Secretary

38a
Clinton’s emails. Id. at 5. Additionally, Judicial
Watch asks the Court to require Mr. Combetta to
bring to his deposition all records in his possession
relating to Secretary Clinton’s emails from her time
at State. Id. On December 30, 2019, Judicial Watch
informed the Court that Mr. Combetta would assert
his Fifth Amendment privilege against selfincrimination if Judicial Watch served a subpoena on
him. 2 Status Report Regarding Combetta Dep. 1, ECF
No. 155. The Court sees no reason to authorize what
would be an exercise in futility. Accordingly, the
Court DENIES Judicial Watch’s request to depose
Mr. Combetta.
State Department Interrogatories
Judicial Watch seeks to serve two additional
interrogatories on State. First, Judicial Watch asks
State to “[i]dentify the number of FOIA lawsuits
pending in 2014 that sought records relevant to
Secretary Clinton’s emails from her tenure at the
State Department.” Pl.’s Status Report 5. Of the total
number of those lawsuits, Judicial Watch asks State
to “identify the number of lawsuits the State
Department attempted to settle from January 2014
through February 2015.” Id. The Court agrees with
State and holds that the first request is ambiguous
and
therefore
inherently
burdensome.
The
information Judicial Watch seeks is likely also
The Justice Department gave Mr. Combetta only limited-use
immunity during the FBI’s investigation into Secretary Clinton’s
private server. Status Report Regarding Combetta Dep. I, ECF
No. 155.
2

39a
publicly available. The Court DENIES the first
request.
The second request is similarly ambiguous,
unduly burdensome, and disproportionate to the
needs of the case. Additionally, the request seeks
information
related
to
internal
settlement
discussions, which likely would be protected by the
work-product doctrine. The likelihood of receiving
relevant, non-privileged information does not
warrant the search, so the Court DENIES the second
request.
Subpoena/or Documents
Judicial Watch seeks to subpoena Google for
relevant documents and records associated with
Secretary Clinton’s emails during her tenure at State.
Id. at 5-6. The subpoena seeks to discover new emails,
so it certainly relates to whether State conducted an
adequate search. But State points out that Judicial
Watch fails to explain how this search would be any
more fruitful than the FBI’s extensive investigation
into Secretary Clinton’s missing emails. See Def.’s
Status Report 8-9. According to State, the request is
disproportionate to the needs of the case because it is
highly unlikely that Judicial Watch would receive any
relevant information or emails that the FBI or DOJ
Inspector General failed to uncover. See id.
The Court is not confident that State currently
possesses every Clinton email recovered by the FBI;
even years after the FBI investigation, the slow
trickle of new emails has yet to be explained. For this

40a
reason, the Court believes the subpoena would be
worthwhile and may even uncover additional
previously undisclosed emails. Accordingly, the Court
GRANTS this request.
Cheryl Mills
Judicial Watch seeks to depose Ms. Mills on all
areas of discovery. Ms. Mills-appearing as a non-party
in this case-opposes this request because Judicial
Watch already deposed her in Judicial Watch’s FOIA
case before Judge Sullivan, Judicial Watch, Inc. v.
U.S. Dep 't of State, Case No. 13-cv-1363 (D.D.C.). See
Mills Obj. Dep. 1-2, ECF No. 142. According to Ms.
Mills, any further discovery would be duplicative
because she already testified for seven hours during
her previous deposition to all relevant issues in this
case. See id.
Judicial Watch argues that it should be able to
depose Ms. Mills in this case because it knows more
information now than it did when it deposed her in
2016. See Pl.’s Combined Reply 10-12, ECF No. 144.
The Court sympathizes with this argument-now that
Judicial Watch has a better understanding of what
happened, it should have an opportunity to craft new
questions derived from newly discovered facts. When
Ms. Mills was deposed, Judicial Watch was not aware
of the 30,000 deleted Clinton emails or that a
Congressional subpoena had already been served on
Secretary Clinton for her Benghazi records. Id. at 12.
Furthermore, State’s mishandling of this case opened
up discovery in the first place, and Judicial Watch
should not be prohibited from asking Ms. Mills about

41a
what it learned from discovery just because she was
deposed over three years ago in Judicial Watch’s case
before Judge Sullivan.
To the extent that Judicial Watch tailors relevant,
non-duplicative questions-and those questions fall
within the parameters set forth in the Court’s
December 6, 2018, memorandum opinion and order
authorizing discovery-the Court GRANTS Judicial
Watch’s request to depose her on all areas of
discovery.
Secretary Hillary Clinton
Judicial Watch believes it is now necessary to
depose Secretary Clinton because significant
questions pertaining to her state of mind remain that
only she can answer. See Pl.’s Combined Reply 1-2.
Secretary Clinton-appearing as an intervenor in this
case--disagrees. She argues that the only relevant
information she would have knowledge of is whether
she used a private server to evade FOIA. See Clinton
Opp. Dep. 5-6, ECF No. 143. State’s settlement
attempts and its search for records in response to
Judicial Watch’s FOIA request occurred well after
Secretary Clinton’s departure. See id. The Court
mostly agrees with Secretary Clinton here-any
further discovery should focus on whether she used a
private server to evade FOIA and, as a corollary to
that, what she understandood about State’s records
management obligations. 3
The sole exception to these limitations pertains to records of
the Benghazi attack, which will be explored further in the next
section of this order.
3

42a
But Secretary Clinton maintains that she has
already testified extensively and in multiple settings
about her reasons for using a private server, so any
additional discovery would be duplicative. See id. at
6-12. She reminds the Court that the findings of the
Benghazi Select Committee, the State Department
Inspector General, and the FBI all relate to her use of
a private server and that they are all publicly
available. Id. at 7. Additionally, Secretary Clinton
answered several questions related to her reasons for
using a private server through interrogatories in
Judicial Watch’s case before Judge Sullivan. See id. at
7-8. Secretary Clinton specifically highlights the
interrogatories that focus on how, when, and why she
set up and used a private server. See id. Furthermore,
because Secretary Clinton was a high-ranking
government official, she argues that the apex doctrine
requires Judicial Watch to demonstrate that
“extraordinary circumstances” justify this discovery
request. Id. at 6-7 (quoting Judicial Watch v. U.S.
Dep't of State, No. 13-cv-1363, 2016 WL 10770466, at
*6 (D.D.C. Aug. 19, 2016)). According to Secretary
Clinton, Judicial Watch cannot meet that burden
because her existing, publicly available testimony
already answers Judicial Watch’s questions. See id. at
7.
For its part, Judicial Watch argues that Secretary
Clinton’s existing testimony has only scratched the
surface of the inquiry into her motives for setting up
and using a private server. Pl.’s Combined Reply 2-3.
Secretary Clinton has repeatedly stated that

43a
convenience was the main reason for using a private
server, see, e.g., Clinton Interrog. 5, ECF No. 143-1,
but Judicial Watch justifiably seeks to explore that
explanation further.
Judicial Watch also requests permission to
question Secretary Clinton in greater detail about her
understanding of State’s records management
obligations-including questions about her various
trainings and briefings regarding these obligations.
See Pl.’s Combined Reply 3-9. Judicial Watch
correctly points out that many questions regarding
her understanding of these obligations still remain
unanswered. See id. at 6-7. For example, how did she
arrive at her belief that her private server emails
would be preserved by normal State Department
processes for email retention? Who told her that-if
anyone-and when? Did she realize State was giving
“no records” responses to FOIA requests for her
emails? If so, did she suspect that she had any
obligation to disclose the existence of her private
server to those at State handling the FOIA requests?
When did she first learn that State's records
management employees were unaware of the
existence of her private server? And why did she think
that using a private server to conduct State
Department business was permissible under the law
in the first place? Again, who told her that-if anyoneand when? These areas of inquiry have not been
explored in nearly enough detail to convince the Court
that Secretary Clinton does not have any new
testimony to offer.
The Court also needs to know whether Secretary

44a
Clinton was aware of the active steps taken to prevent
others at State-especially those who worked in
records management-from learning about her private
server. In a December 24, 2010, email exchange, one
State Department official accidently sent an email
which listed Secretary Clinton’s private email
address to other employees who did not already have
that information, prompting a second State
Department official to reply, “Be careful, you just gave
the secretary's personal email address to a bunch of
folks ... [.]” Pl.’s Combined Reply Ex. D, ECF No. 1444. The first official responded, “Should I say don’t
forward? Did not notice[.]” Id. The second official
replied, “Yeah-I just know that she guards it pretty
closely[.]” Id. How could Secretary Clinton possibly
believe that everyone at State knew about her private
server if her subordinates took pains to ensure that
her email address would not be widely disseminated?
Was she aware of this attempt-or any other attemptsto keep other State Department employees in the
dark? Secretary Clinton’s answers to these questions
directly relate to her understanding of her records
management obligations.
As extensive as the existing record is, it does not
sufficiently explain Secretary Clinton’s state of mind
when she decided it would be an acceptable practice
to set up and use a private server to conduct State
Department business. Even Huma Abedin, one of
Secretary Clinton’s closest confidants, testified that
Judicial Watch “would have to ask [Secretary
Clinton]” herself to ascertain whether the Secretary
knew if her use of a private server satisfied her FOIA
obligations. Abedin Dep. 115:17-116:3, Judicial

45a
Watch, Inc. v. US. Dep't of State, Case No. 13-cv-1363,
ECF No. 129. The Court authorizes Judicial Watch to
do so. And, contrary to Secretary Clinton’s assertion,
the apex doctrine does not shield her from testifying. 4
Because Judicial Watch has convinced the Court
of the need for further discovery from Secretary
Clinton, the only remaining issue is whether the
Court should authorize additional interrogatories or
a deposition of Secretary Clinton. As the parties point
out,
Secretary
Clinton
already
answered
interrogatories in Judicial Watch’s case before Judge
Sullivan. But after carefully considering the discovery
materials uncovered in this case and Judge Sullivan’s
case, including Secretary Clinton’s responses, the
Court believes those responses were either
incomplete, unhelpful, or cursory at best. Simply put,
It is true that high-raking government officials “should not,
absent extraordinary circumstances, be called to testify
regarding their reasons for taking official actions.” Simplex Time
Recorder Co. v. Sec’y of Labor, 766 F.2d 575, 586 (D.C. Cir. 1985)
(citing United States v. Morgan, 313 U.S. 409, 422 (1941)). But
the only person who can speak to Secretary Clinton’s reasons for
setting up and using a private server and her understanding of
State’s records management obligations is Secretary Clinton
herself. Secretary Clinton unquestionably has unique first-hand
knowledge of these matters, so Judicial Watch has demonstrated
“extraordinary circumstances.” See FDIC v. Galan-Alvarez, No.
15-mc-752 (CRC), 2015 U.S. Dist. LEXIS 130545, at *12 (D.D.C.
Sept. 4, 2015) (explaining that a party may depose a high-raking
government official if the official has “unique first-hand
knowledge related to the litigated Claims”) (quoting Lederman
v. N.Y.C. Dep't of Parks and Recreation, 731 F.3d 199,203 (2d
Cir. 2013)).
4

46a
her responses left many more questions than
answers.
The Court expects that additional interrogatories
will only muddle any understanding of Secretary
Clinton’s state of mind and fail to capture the full
picture, thus delaying the final disposition of this case
even further. The Court has considered the numerous
times in which Secretary Clinton said she could not
recall or remember certain details in her prior
interrogatory answers. In a deposition, it is more
likely that plaintiff’s counsel could use documents and
other testimony to attempt to refresh her recollection.
And so, to avoid the unsatisfying and inefficient
outcome of multiple rounds of fruitless interrogatories
and move this almost six-year-old case closer to its
conclusion, Judicial Watch will be permitted to clarify
and further explore Secretary Clinton’s answers in
person and immediately after she gives them. The
Court agrees with Judicial Watch-it is time to hear
directly from Secretary Clinton.
Accordingly, the Court GRANTS Judicial
Watch’s request to depose Secretary Clinton on
matters concerning her reasons for using a private
server and her understanding of State’s records
management obligations, but DENIES its request to
depose her on all other matters-with one exception
outlined in the next section of this order.
Benghazi Attack Records
Finally, Judicial Watch seeks to question both
Secretary Clinton and Ms. Mills about “the

47a
preparation of talking points for former U.N.
Ambassador Susan Rice’s September 16, 2012 media
appearances, the advance dissemination or discussion
of those talking points, the aftermath of Rice’s
appearances, and the Department’s evolving
understanding of the Benghazi attack.” Pl.’s
Combined Reply 12-13. Judicial Watch argues that
their answers will provide more information
regarding the adequacy of State's search. Id. at 13.
Secretary Clinton specifically opposes this
request. She argues that questioning her about the
government’s response to the Benghazi attack has no
relevance to the underlying FOIA request and falls
outside the parameters set forth in the Court's
December 6, 2018, memorandum opinion and order
authorizing discovery. Clinton Opp. Dep. 6.
Additionally, she highlights the request as proof that
Judicial Watch might seek to improperly expand the
parameters of discovery if the Court permits Judicial
Watch to depose her. Id. at 12-13 n.5.
The Court holds that Secretary Clinton and Ms.
Mills cannot be questioned about the underlying
actions taken after the Benghazi attack, but they may
be questioned about their knowledge of the existence
of any emails, documents, or text messages related to
the Benghazi attack. Such inquiries would go to the
adequacy of the search without expanding the
parameters of discovery to include the substance of
the government’s response to the attack. Accordingly,
the Court GRANTS IN PART AND DENIES IN
PART this request.

48a
**********
The parties shall complete this round of discovery
within seventy-five (75) days, unless they seek
additional time. The Court will hold a post-discovery
hearing to set a further schedule herein.
It is SO ORDERED.
Date: March 2, 2020
/s/ Royce C. Lamberth
Royce C. Lamberth
United States District Judge

49a
United States Court of Appeals
for the District of Columbia Circuit
No. 20-5056

September Term, 2019

Filed On: October 28, 2020
IN RE: HILLARY RODHAM CLINTON AND
CHERYL MILLS,
PETITIONERS
Before: Srinivasan, Chief Judge; Henderson, Rogers,
Tatel*, Garland, Millett, Pillard, Wilkins, Katsas,
Rao, and Walker, Circuit Judges.
ORDER
Upon consideration of respondent’s petition for
rehearing en banc, and the absence of a request by
any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk

50a
*Circuit Judge Tatel did not participate in this
matter.

51a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Case No. 14-1242
____________________________
Judicial Watch, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
U.S. Department of State,
)
)
Defendant.
)
____________________________ )
Order
Upon consideration of former Secretary of State
Hillary Rodham Clinton’s unopposed motion to
intervene in this action, it is hereby ordered that the
motion to intervene is GRANTED, and Secretary
Clinton may participate in this action.
SO ORDERED this 21st day of August 2019.
/s/ Royce C. Lamberth
Royce C. Lamberth
United States District Judge

52a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Case No. 14-1242
____________________________
Judicial Watch, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
U.S. Department of State,
)
)
Defendant.
)
____________________________ )
NON-PARTY SECRETARY OF STATE
HILLARY RODHAM CLINTON’S
UNOPPOSED MOTION TO INTERVENE
Former Secretary of State Hillary Rodham
Clinton, by undersigned counsel, respectfully moves
to intervene as a party in this case pursuant to Rule
24(b) of the Federal Rules of Civil Procedure.
Undersigned counsel has complied with Local Civil
Rule 7(m), and counsel for Judicial Watch and counsel
for the State Department do not oppose Secretary
Clinton’s intervention.
As the former Secretary of State and a non-party
from whom Judicial Watch seeks discovery, Secretary
Clinton shares a “claim or defense that shares with
the main action a common question of law or fact.”

53a
Fed. R. Civ. P. 24(b)(1)(B). 1 This Court has permitted
intervention under Rule 24(b) where, as here, the
defendant and potential intervenor hold similar legal
positions. 100ReportersLLC v. DOJ, 307 F.R.D. 269,
286 (D.D.C. 2014). Because Secretary Clinton is no
longer a government official, it would be appropriate
for personal counsel to represent her in this matter.
Secretary Clinton’s intervention at this time
would not prejudice Judicial Watch or the State
Department, as indicated by both parties’ consent to
this motion. See Fed. R. Civ. P. 24(b)(3).
Dated: August 20, 2019
/s/ David E. Kendall
David E. Kendall (D.C. Bar No. 252890)
Katherine Turner (D.C. Bar No. 495528)
Stephen Wohlgemuth (D.C. Bar No. 1027267)
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, NW
Washington, DC 20005
Tel: (202) 434-5000
Fax: (202) 434-5029
dkendall@wc.com
kturner@wc.com
swohlgemuth@wc.com
Attorneys for Secretary Clinton

Specifically, the Court has permitted discovery into
Secretary Clinton’s use of a private email server. Jan. 15, 2019
Mem. & Order at 1, ECF No. 64.
1

54a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Case No. 14-1242
____________________________
Judicial Watch, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
U.S. Department of State,
)
)
Defendant.
)
____________________________ )
ORDER
The Court, having considered Defendant’s Motion
to Modify Scheduling Order (ECF No. 123), Plaintiff’s
Response thereto, Defendant’s reply, and the entire
record herein, hereby orders that Defendant’s Motion
to Modify Scheduling Order is GRANTED in part and
DENIED in part. The hearing set for August 26 at 10
AM is moved to August 22 at 2:00 PM. August 21 at
5:00 PM will be the deadline for any status report(s).
ORDERED this 14th day of August, 2019.
/s/ Royce C. Lamberth
Royce C. Lamberth
United States District Judge

55a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Case No. 14-1242
____________________________
Judicial Watch, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
U.S. Department of State,
)
)
Defendant.
)
____________________________ )
ORDER
According to the docket, the initial discovery
authorized by this Court’s January 15, 2019 order
ended on June 19, 2019. At that time, the Court
contemplated “a post-discovery hearing to ascertain
the adequacy of State’s searches, to determine if
Judicial Watch needs to depose additional witnesses
(including Hillary Clinton or her former Chief of Staff
Cheryl Mills), and to schedule dispositive motions.”
Mem. & Order 2, ECF No. 65. So the Court ORDERS
the parties to appear for that hearing on August 26,
2019 at 10:00 AM. In the meantime, the Court
ORDERS the parties to meet and confer, and to
submit by August 21, 2019 a status report – joint if
possible; separately if necessary – proposing a plan
and schedule for further proceedings in this case.

56a
August 7, 2019
/s/ Royce C. Lamberth
Royce C. Lamberth
United States District Judge

57a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Case No. 14-1242
____________________________
Judicial Watch, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
U.S. Department of State,
)
)
Defendant.
)
____________________________ )
MEMORANDUM ORDER
When this case began, Judicial Watch sought to
verify the State Department’s search for records from
former Secretary Hillary Clinton and her aides
concerning the talking points former U.N.
Ambassador Susan Rice used to respond to the attack
on the U.S. Embassy in Benghazi, Libya. But the case
has since expanded to question the motives behind
Clinton’s private email use while Secretary, and
behind the government’s conduct in this litigation.
Last month, this Court ordered the parties to
meet and confer to plan discovery [55]. Judicial Watch
submitted a proposed plan [62]; the government
responded and countered with its proposal [63];
Judicial Watch replied [64]. This Memorandum &
Order maps the path forward.

58a
*

*

*

I. Scope & Schedule. Discovery shall be limited to
three issues: (1) whether Clinton intentionally
attempted to evade FOIA by using a private email
while Secretary of State; (2) whether State’s efforts to
settle this case in late 2014 and early 2015 amounted
to bad faith; and (3) whether State adequately
searched for records responsive to Judicial Watch’s
FOIA request. Either side must obtain permission to
conduct
discovery
beyond
the
depositions,
interrogatories, and document requests described
herein.
The Court recognizes Judicial Watch took related
discovery in Judicial Watch, Inc. v. Department of
State, No. 13-1363 (D.D.C.) (Sullivan, J.). Yet the
Court declines to expressly curtail discovery in this
case as a result, especially since Judicial Watch does
not propose deposing witnesses also deposed in that
case. Consistent with the parties’ demonstrated
respect for the discovery process there, see Transcript
of Motion Hearing Proceedings at 21:3-19, Judicial
Watch, Inc. v. Dep’t of State, No. 13-1363 (D.D.C. July
18, 2016), ECF No. 159, the Court hopes the parties
avoid unnecessarily duplicative discovery here.
The parties shall complete discovery within 120
days, unless they seek additional time. The Court will
hold a post-discovery hearing to ascertain the
adequacy of State’s searches, to determine if Judicial
Watch needs to depose additional witnesses

59a
(including Hillary Clinton or her former Chief of Staff
Cheryl Mills), and to schedule dispositive motions.
II. Procedure. The parties shall conduct discovery
pursuant to the Federal Rules of Civil Procedure and
of Evidence, subject to these limitations:
A. Time to Respond to Interrogatories &
Document Requests. Absent contrary order, Federal
Rules of Civil Procedure 33(b)(2) and 34(b)(2)(A) give
parties thirty days to respond to interrogatories and
document requests. This default limit will apply to
interrogatories and document requests propounded
on private citizens. For interrogatories and document
requests propounded on the government, Judicial
Watch wants to shorten the limits to fourteen days;
the government asks for the standard thirty-day
periods. Recognizing Judicial Watch’s need to obtain
preliminary discovery before taking depositions, but
mindful of overburdening the government, the Court
gives the government twenty days to respond to
interrogatories and document requests.
B. Number of Depositions. The government
wants to limit Judicial Watch to Rule 30(a)(2)(A)(i)’s
ten-deposition ceiling. But consistent with Rule
26(b)(2)(A), the Court allows Judicial Watch to depose
all witnesses enumerated herein.
C. Privilege Claims & Objections. Neither side
waives any privileges or specific objections. As the
government notes, the parties may agree pursuant to
Federal Rule of Evidence 502(e) to disclose
information without waiving attorney-client or work-

60a
product privileges. But absent agreement, the
government proposes producing its privilege log after
discovery ends. That is insufficient. To facilitate
meaningful document production, the government
must produce a rolling privilege log, concurrent with
its timely responses to document requests. And to
facilitate prompt resolution of disputes, the Court will
require any opposition be filed within five business
days of a motion for judicial intervention, with replies
due three business days after the opposition’s filing.
D. Government Review of Deposition Transcripts
or Recordings. The government may, in its sole
discretion, embargo a deposition’s contents for three
business days after production of the transcript or
recording-provided that it does so in good faith and
that it declared its intent to do so on the record at the
deposition-to review the transcript or recording for
classified information, for information specifically
exempted from disclosure by statute, or for
information concerning a pending law enforcement
investigation, and to seek an order precluding the
information’s public release.

61a
III. Discovery into Hillary Clinton’s Private
Email Use.
A. Depositions. On whether Clinton’s private
email use while Secretary of State was an intentional
attempt to evade FOIA, Judicial Watch may depose: 1
1. Eric Boswell. the former Assistant
Secretary for Diplomatic Security. The
government argues Boswell does not have
information relevant to the purpose
behind Clinton’s private email use,
claiming he merely responded to her
staff’s inquiries regarding Blackberry use
in her private office suite. But existing
evidence contradicts this claim: Boswell’s
March 2009 memo to Mills (available at
ECF No. 64-1) discusses security risks
Clinton’s Blackberry use posed more
generally. And Boswell personally
discussed the memo with Clinton. So he
plainly has relevant information about
that conversation and about his general
knowledge of Clinton’s email use. Judicial
Watch may depose Boswell.
2. Justin Cooper, the Clinton Foundation
employee
who
created
the
clintonemail.com server. In its proposal,
Judicial Watch noted Cooper’s prior
congressional testimony “appears to
contradict portions of the testimony
provided by Huma Abedin in the case
If these individuals also appear in subsections IV.A or V.A of
this Order, Judicial Watch may only depose each witness once.
1

62a
before Judge Sullivan.” Pl.’s Prop. Disc.
Plan 2, ECF No. 62. The government
opposed Judicial Watch’s request because
Judicial Watch “offer[ed] no [further]
explanation” or citation. Def.’s Prop. Disc.
Plan & Sched. 18-19, ECF No. 63. But
Judicial Watch provided one in its
response:
Cooper
repeatedly
told
Congress that Abedin helped set-up the
Clintons’ private server, e.g., Examining
Preservation of State Department Federal
Records: Hearing Before the H Comm. on
Oversight & Gov’t Reform, 114th Cong. 40
(2016); Abedin testified under oath she
did not know about the server until six
years later. See Transcript of Huma
Abedin Deposition at 19:16-20:14,
Judicial Watch, Inc. v. Dep’t of State, No.
13-1363 (D.D.C. June 28, 2016), ECF No.
129. Judicial Watch may depose Cooper.
3. Clarence Finnev. the former deputy
director of State’s Executive Secretariat
staff. The government opposes Finney’s
deposition on two grounds. First, the
government argues Finney’s testimony
would be more efficiently covered through
State’s Rule 30(b)(6) deposition. But this
case’s questions hinge on what specific
State employees knew and when they
knew it. As the principal advisor and
records management expert responsible
for
controlling
Clinton’s
official
correspondence and records, Finney’s
knowledge is particularly relevant. And

63a
especially given the concerns about
government misconduct that prompted
this discovery, Judicial Watch’s ability to
take his direct testimony and ask followup questions is critical.
Second, the government opposes
Finney’s deposition because he testified
publicly before Congress on similar
issues, and because Judicial Watch
unsuccessfully sought his deposition in
Judicial Watch v. Department of State,
No. 13-1363 (D.D.C.). True enough, Judge
Sullivan
did
not
allow
Finney’s
deposition,
thinking
it
would
unnecessarily duplicate State’s 30(6)(6)
deposition in that case. See Mem. Op. 2123, Judicial Watch v. Dep’t of State, No.
13-1363 (D.D.C. Aug. 19, 2016), ECF No.
124. But here, Judicial Watch seeks to go
beyond cursory, second-hand testimony
and directly ask Finney what he knew
about Clinton’s email use. This includes
asking about emails suggesting he knew
about her private email use in 2014, and
emails he received concerning a December
2012 FOIA request from Citizens for
Responsible Ethics in Washington
(CREW) regarding senior officials’
personal email use-topics State’s 30(6)(6)
deposition in Judge Sullivan’s case never
addressed. Judicial Watch may depose
Finney.
4. Heather Samuelson, the former State
Department senior advisor who helped

64a
facilitate State’s receipt of Hillary
Clinton’s emails. The government argues
Samuelson’s testimony would be more
efficiently covered through State’s Rule
30(6)(6) deposition. But as explained in
subsection III.A.3, this case turns on what
specific government employees knew and
when they knew it. Judicial Watch must
be able to take their direct testimony and
ask them follow-up questions. Judicial
Watch may depose Samuelson.
5. Jacob Sullivan, Secretary Clinton’s
former senior advisor and deputy Chief of
Staff. The government does not oppose
Sullivan’s deposition.
B. Interrogatories. Judicial Watch may discover
through interrogatory the identities of the individuals
referenced in the first full paragraph on the fourth
page of the Federal Bureau of Investigation’s
December 30, 2015 report (available at ECF No. 62-1)
describing its December 22, 2015 interview of Bryan
Pagliano. The government does not oppose this
interrogatory.
IV. Discovery into the
Settlement Conduct.

State

Department’s

A. Depositions. On whether State’s settlement
attempts in late 2014 and early 2015 amounted to bad
faith, Judicial Watch may depose: 2
If these individuals also appear in subsections III.A or V.A of
this Order, Judicial Watch may only depose each witness once.
2

65a
1. The State Department. Judicial Watch
may depose the State Department under
Rule 30(b)(6) about
• this FOIA request;
• CREW’s December 2012 FOIA
request;
• its initial discovery of, and reaction to,
Hillary Clinton’s private email use;
• its November 12, 2014 letter to
Judicial Watch regarding this
litigation;
• the December 31, 2014 Joint Status
Report, ECF No. 10; and
• the February 2, 2015 Joint Status
Report, ECF No. 11.
The government does not oppose this
deposition.
2. Finney. See supra subsection III.A.3.
3. John Hackett, the former deputy director
of State’s Office of Information Programs
& Services. The government argues
Hackett’s testimony would be more
efficiently elicited through State’s Rule
30(b)(6) deposition. But as explained in
subsection III.A.3, this case depends on
what specific government employees
knew and when they knew it. Judicial
Watch must be able to take their direct
testimony and ask them follow-up
questions. Judicial Watch may depose
Hackett.

66a
4. Gene Smilanskv, an attorney-advisor
within State’s Office of the Legal Advisor.
The government opposes Smilansky’s
deposition, calling it an “extraordinary
request”
because
“Smilansky
has
provided [State with] legal advice
regarding requests for emails from
Secretary Clinton, FOIA litigation
concerning the Benghazi attacks and the
talking points at issue in this case, and
because virtually all of his knowledge (if
any) about the relevant facts would have
come to him in his role as an attorney
advising a client.” Def.’s Prop. Disc. Plan
& Sched. 20-21. It also claims “Smilansky
is unlikely to have any relevant, nonprivileged information that is unavailable
from other sources,” including the
Department’s 30(b)(6) deposition or the
State Department Inspector General’s
public report.
To be sure, it is rare for a party to
depose his opponent’s attorney. But this is
rare case. Judicial Watch adequately
justifies this exceptional step by
establishing Smilansky’s involvement in
processing FOIA requests for Secretary
Clinton’s email from 2012 to 2014,
including CREW’s 2012 request. And in
this case about what government officials
knew and when they knew it, Smilansky’s
experience-documented through emails
he sent and received in 2013 and 2014, see
ECF No. 50-1-is highly relevant and

67a
critical to Judicial Watch’s case.
Moreover, his first-hand knowledge is
what’s critical, not inforn1ation filtered
tlu·ough a 30(b)(6) deposition or through
the Inspector General’s report. See also
supra subsection III.A.3. Judicial Watch
may depose Smilansky.
5. Samuelson. See supra subsection III.A.4.
6. Sheryl Walter, former director of State’s
Office of Information Programs &
Services. The government argues Walter’s
testimony would be more efficiently
covered through State’s Rule 30(b)(6)
deposition. But as explained in subsection
III.A.3, this case involves what specific
government employees knew and when
they knew it. Judicial Watch must be able
to take their direct testimony and ask
them follow-up questions. Judicial Watch
may depose Walter.
7. Jonathon Wasser, a management analyst
for the Executive Secretariat staff. The
government
argues
that
Wasser’s
testimony
unnecessarily
duplicates
State’s 30(b)(6) deposition in Judicial
Watch v. Department of State, No. 13-1363
(D.D.C.) (Sullivan, J.), and-in any eventthat his testimony would be more
efficiently covered through State’s Rule
30(b)(6) deposition. But both arguments
miss Judicial Watch’s need to take his
direct testimony and ask him follow-up
questions, particularly regarding emails
suggesting he knew about Clinton’s

68a
private email use in 2014. See also supra
subsection III.A.3. Judicial Watch may
depose Wasser.
8. The Office of Information Program &
Services analysts assigned to this case.
The government argues these individuals’
testimony would be more efficiently
elicited through State’s Rule 30(b)(6)
deposition. But as explained in subsection
III.A.3, this case turns on what specific
government employees knew and when
they knew it. Judicial Watch must be able
to take their direct testimony and ask
them follow­up questions. Judicial Watch
may depose these analysts.
9. The unidentified Officer of Information
Program & Services official whose August
17, 2015 FBI interview is memorialized in
the August 18, 2015 report available at
ECF No. 62-2. The government argues
this person’s testimony would be more
efficiently covered through State’s Rule
30(b)(6) deposition. But as explained in
subsection III.A.3, this case concerns
what specific government employees
knew and when they knew it. Judicial
Watch must be able to take their direct
testimony and ask them follow-up
questions. Judicial Watch may depose
this unidentified official.
B. Interrogatories. Judicial Watch may also
obtain via interrogatory the identity of the analysts
who searched the Office of the Secretary records on

69a
September 23, 2014, and of any people who performed
the search described in paragraph seventeen of John
F. Hackett’s July 7, 2015 declaration (available at
ECF No. 19-2), as well as the dates they searched. The
government does not oppose these interrogatories.
C. Document Requests. Finally, Judicial Watch
may request the following documents:
1. an unredacted copy of an August 8, 2014
email exchange between Finney, Wasser,
James Blair, Andrew Keller, and
Smilansky (a redacted copy is available at
ECF No. 50-1, p. 37);
2. an unredacted copy of a May 1, 2013 email
exchange between Smilansky, Brett
Gittleson, Walter, and others (a redacted
copy is available at ECF No. 50-1, pp. 2329);
3. a copy of the email exchanges available at
ECF No. 62-3 with the Exemption 5
redactions removed; and
4. records concerning the Department’s preFebruary 2, 2015 awareness of the need to
continue searching for records responsive
to this FOIA request, as well as those
records’ locations.
The government does not oppose these document
requests.
V. Discovery into the Adequacy of the
State Department’s Search.

70a
A. Depositions. On whether State adequately
searched for responsive records, Judicial Watch may
depose: 3
1. The State Department. Judicial Watch
may depose the Department under Rule
30(b)(6) about
• this FOIA request;
• preparing talking points for former
U.N. Ambassador Susan Rice’s
September 16, 2012 media
appearances;
• the advance dissemination or
discussion of those talking points;
• the aftermath of Rice’s appearances;
and
• the Department’s evolving
understanding of the Benghazi
attack.
The government does not oppose deposing
the Department on the first point. But the
government does oppose deposing the
Department on the latter four points,
arguing they “ha[ve] nothing to do with
the adequacy of State’s response to the
narrow FOIA request at issue in this
litigation.” Def.’s Prop. Disc. Plan & Sched.
2.
Yet Rice’s talking points and State’s
understanding of the attack play an
unavoidably central role in this case:
information about the points’ development
If these individuals also appear in subsections III.A or IV.A of
this Order, Judicial Watch may only depose each witness once.
3

71a
and content, as well as their discussion
and dissemination before and after Rice’s
appearances
could
reveal
extant
unsearched, relevant records; State’s role
in the points’ content and development
could shed light on Clinton’s motives for
shielding her emails from FOIA
requesters or on State’s reluctance to
search her emails. See also Mem. Op. 7-8,
ECF No. 54 (“Did State know Clinton
deemed the Benghazi attack terrorism
hours after it happened, contradicting the
Obama
Administration’s
subsequent
claim of a protest-gone-awry? ... Did the
Department merely fear what might be
found? Or was State’s bungling just the
unfortunate result of bureaucratic redtape
and a failure to communicate?”). The
government correctly notes Judicial
Watch cannot “appoint itself as a freelance
Inspector General” into the Obama
Administration’s response to the Benghazi
attack. Def.’s Prop. Disc. Plan & Sched. 11.
But that’s not what Judicial Watch does
here. Though Judicial Watch cannot helm
a fishing expedition trawling anything and
everything concerning the Benghazi
attack, Judicial Watch may depose State
on these topics to the extent helpful to
answer the questions underlying this
discovery.
2. Cooper. As Clinton’s email server’s initial
creator and manager, Cooper may have
relevant insight on whether additional

72a

3.
4.
5.
6.

emails still exist and where they may be
located. See also supra subsection III.A.2.
Judicial Watch may depose Cooper.
Finney. See supra subsection III.A.3.
Samuelson. See supra subsection III.A.4.
Sullivan. The government does not oppose
Sullivan’s deposition.
Wasser. See supra subsection IV.A.7.

B. Interrogatories.
i. Judicial Watch may serve interrogatories
on Rice and on Benjamin Rhodes, President Obama’s
former Deputy National Security Advisor who helped
develop Rice’s talking points. Judicial Watch actually
wants to depose Rice and Rhodes. But the government
opposes the depositions, casting them as “an attempt
to get at the underlying issues about Benghazi, rather
than issues relating to this FOIA case.” Def.’s Prop.
Disc. Plan & Sched. 12.
Of course, that is not entirely true. Just as the
State Department’s testimony on the Benghazi attack
and Rice’s talking points may help answer the
questions underpinning this discovery, see supra
subsection V.A.I, so too may Rice and Rhodes’s
testimony. But neither Rice nor Rhodes worked in the
Office of the Secretary; neither has ties to Hillary
Clinton’s private email use or to the government’s
conduct in this case. And if Judicial Watch wants to
discover who Rice communicated with on the day of
the attack and the following weeks, it already has all
her emails, thanks to its identically worded, longresolved FOIA request to the U.S. Mission to the

73a
United Nations. See Judicial Watch v. US. Dep’t of
State, No. 13-951 (D.D.C. Sept. 12, 2014) (Sullivan,
J.). So to the extent Judicial Watch will sail
unchartered waterfront with Rice and Rhodes, it has
not justified deposing them; interrogatories would
seemingly suffice to verify State’s search in this case.
So for now, Judicial Watch may only serve
interrogatories on Rice and Rhodes.
ii. Judicial Watch may serve interrogatories
on E.W. Priestap, the assistant director of the FBI’s
counterintelligence division who supervised the
investigation into Clinton’s private email use.
Judicial Watch’s proposal goes further, seeking to
depose Priestap on “the nature [and] extent of the
FBI’s efforts, such as who the FBI attempted to
contact, who the FBI actually talked to, who the FBI
requested records from, who actually provided
records, and whether the FBI believes those that they
requested records from actually returned all of the
requested records.” Pl.’s Resp. 6, ECF No. 64. To be
sure, “[t]his information could shed additional light
on the adequacy of the State Department’s search and
other sources from which it might yet obtain records.”
Id.
But the government notes “Priestap has
already provided declarations [in another case]
recounting the ‘FBI’s extensive efforts to locate all
potentially work-related’ emails.” See Def.’s Prop.
Disc. Plan & Sched. 18-19 (quoting Mem. Op. at 13,
Judicial Watch v. Tillerson, No. 15- 785 (D.D.C. Nov.
9, 2017) (Boasberg, J.)). And those declarations rule
out further stores of Clinton’s emails. See Mem. Op.

74a
at 4, Judicial Watch v. Tillerson, No. 15-785 (D.D.C.
Nov. 9, 2017), ECF No. 58. The FBI’s final report
echoes this testimony, U.S. Dep’t of Justice, Clinton
E-Mail Investigation, https://vault.fbi.gov/hillary-r.clinton/Hillary%20R.%20Clinton
%20Prui%
2001%20of%2028, as does the FBI Inspector
General’s report. U.S. Dep’t of Justice, A Review of
Various Actions by the Federal Bureau of
lnvestigation and Department of Justice in Advance
of
the
2016
Election
(2018),
https://,vww.oversight.gov/sites/default/files/oigrepmis/2016_ election_final_report_06-14-l 8_0.pdf.
To the extent Judicial Watch will cover
unexplored terrain with Priestap, it has not justified
saddling this high-ranking law enforcement official
with a deposition. The Court does not see why Judicial
Watch cannot adequately discover the information
more efficiently through interrogatories. So Judicial
Watch may only serve interrogatories on Priestap.
iii. Judicial Watch may serve interrogatories
on Monica Hanley, a former staff member in State’s
Office of the Secretary, and on Lauren Jiloty,
Clinton’s former special assistant. The government
does not oppose these interrogatories.
Judicial Watch’s proposal goes further,
seeking to depose Hanley and Jiloty to elicit their
recollection
of
Clinton’s
frequent
email
correspondents. On one hand, their testimony
matters: Hanley was a key Clinton assistant, and
Jiloty maintained Clinton’s Blackberry contacts, so
their knowledge of Clinton’s email practices will help

75a
ensure State turned over every stone to search for
Clinton’s emails. But the Court does not see why such
a limited purpose necessitates an expensive and
burdensome deposition. Nor does Judicial Watch
adequately justify why it cannot discover what it
needs from Hanley and Jiloty with equal effect and
greater economy through interrogatories. So for now,
the Court only allows Judicial Watch to serve
interrogatories on Hanley and Jiloty.
iv. Judicial Watch may also obtain through
interrogatory the number of emails within
Department records sent to or from the
clintonemail.com domain name-including the “carbon
copy” and “blind carbon copy” functions-between
September 11, 2012 and February 2, 2013 including
Alice Wells, Andrew Shapiro, Anne-Marie Slaughter,
Caroline Adler, Mills, Claire Coleman, Dan Schwerin,
Abedin, Sullivan, Joseph MacManus, Judith McHale,
Jiloty, Lona Valmoro, Maria Sand, Melanne Verveer,
Hanley, Patrick Kennedy, Philippe Reines, Richard
Verma, Robert Russo, Rice, Victoria Nuland, Wendy
Sherman, and William Bums. The government does
not oppose this interrogatory.
Judicial Watch’s proposal goes further,
seeking this information for Clinton’s entire turn as
Secretary, starting January 20, 2009. But the Court
does not see how information from before September
11, 2012 helps Judicial Watch verify State’s search for
documents necessarily created on or after that date.
And neither Judicial Watch’s proposal nor its
response defends the earlier date. So Judicial Watch

76a
may only discover this information for emails sent
between September 11, 2012 and February 2, 2013.
C. Document Requests. Judicial Watch may
request the following documents:
1. all
records-including
internal
communications-concerning this FOIA
request;
2. all records relating to the Department’s
practices, policies, and actions accounting
for Office of the Secretary records,
including the emails of Hillary Clinton,
Cheryl Mills, Huma Abedin, Jacob Sulliv
an, and other staff, during and after their
employment.
The government does not oppose these document
requests.
*

*

It is SO ORDERED.
Date: January 15, 2019
/s/ Royce C. Lamberth
Royce C. Lamberth
United States District Judge

*

77a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Case No. 14-1242
____________________________
Judicial Watch, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
U.S. Department of State,
)
)
Defendant.
)
____________________________ )
MEMORANDUM OPINION
On his first full day in office, President Obama set
a worthy standard for his administration’s
compliance with the Freedom of lnformation Act:
A democracy requires accountability,
and
accountability
requires
transparency. As Justice Louis Brandeis
wrote, “sunlight is said to be the best of
disinfectants.” In our democracy, the
Freedom of lnformation Act (FOIA),
which
encourages
accountability
through transparency, is the most
prominent expression of a profound
national commitment to ensuring an
open government. At the heart of that
commitment
is
the
idea
that

78a
accountability is in the interest of the
Government and the citizenry alike.
[FOIA] should be administered with a
clear presumption: In the face of doubt,
openness prevails. The Government
should not keep information confidential
merely because public officials might be
embarrassed by disclosure, because
errors and failures might be revealed, or
because of speculative or abstract fears.
Nondisclosure should never be based on
an effort to protect the personal interests
of Government officials at the expense of
those they are
supposed to serve. In responding to
requests under the FOIA, executive
branch agencies ... should act promptly
and in a spirit of cooperation,
recognizing that such agencies are
servants of the public.
All agencies should adopt a presumption
in favor of disclosure to renew their
commitment to the principles embodied
in FOIA, and to usher in a new era of
open Government. The presumption of
disclosure should be applied to all
decisions involving FOIA.
Freedom oflnformation Act Memorandum, 74 Fed.
Reg. 4683 (Jan. 21, 2009).

79a
But in this case, faced with one of the gravest
modem offenses to government transparency, his
State and Justice Departments fell far short. So far
short that the Court questions, even now, whether
they are acting in good faith. Did Hillary Clinton use
her private email as Secretary of State to thwart this
lofty goal? Was the State Department’s attempt to
settle this FOIA case in 2014 an effort to avoid
searching-and disclosing the existence of-Clinton’s
missing emails? And has State ever adequately
searched for records in this case?
In July 2014, six months after Clinton resigned as
Secretary of State, Judicial Watch filed this FOIA suit
seeking emails from Clinton and her aides concerning
the talking points former U.N. Ambassador Susan
Rice used to defend the Obama Administration’s
response to the attack on the U.S. Embassy in
Benghazi, Libya. Compl. ¶ 5, ECF No. 1. And
although it would take more than six months for the
public to learn Clinton exclusively used a private
email account as Secretary, see Michael.S. Schmidt,
Hillary Clinton Used Personal Email Account at State
Dept. 1 Possibly Breaking Rules, N.Y. Times (Mar. 2,
2015), https://www.nytimes.com/2015 /03 /0 3 /us/po
litics/hillary-clintons-use-of-private-email-at-statedepartment-raisesflags.html, department officials
already knew Clinton’s emails were missing from its
records. See Rachel Bade, State Made Earlier Request
for Clinton to Hand Over Emails, Politico (Feb. 16,
2016, 5:32 PM), https://www.politico.com/story
/2016/02/hillary-clinton-emails-state-219341.

80a
State played this card close to its chest. In
November 2014, State told Judicial Watch it
performed a legally adequate search and concluded
settlement was appropriate, despite knowing
Clinton’s emails were missing and unsearched.
10/12/18 Tr. 14:2-7, ECF No. 53. In December 2014the same day Clinton quietly turned over 55,000
pages of her missing emails-State gave Judicial
Watch a draft Vaughn index making no mention of
the unsearched records. See 5/1/15 Status Report ¶ 3,
ECF No. 16. Judicial Watch declined to take State’s
word for it, requesting a search declaration. See 5/1/15
Status Report ¶ 3. A few weeks later, State filed a
status report with this Court that failed to
acknowledge the unsearched emails but suggested it
was “possible to ... settle this case.” 12/31/14 Status
Report ¶ 3, ECF No. 10. After another month of radio
silence-by then, at least three months after State
realized it never searched Clinton’s emails, and two
months after Clinton gave the Department 30,490 of
the 62,320 emails recovered from her private server
(she deleted the rest)-State filed another status report
admitting “additional searches for documents
potentially responsive to the FOIA must be
conducted” and asking for two months to conduct
these searches. 2/2/15 Status Report ¶ 3, ECF No. 11.
A month later, Judicial Watch read the New York
Times and realized what State was talking about. See
Pl.’s Mot. Status Conf. ¶ 3, ECF No. 13. That story,
along with reporting that Clinton’s former Chief of
Staff Cheryl Mills and former Deputy Chiefs of Staff
Huma Abedin and Jake Sullivan also used personal
email to conduct government business, see Pl.’s Mot.
Status Conf. ¶ 3; Michael S. Schmidt, In Clinton

81a
Emails on Benghazi, Rare Glimpse at Her Concerns,
N.Y.
Times
(Mar.
23,
2015),
https://www.nytimes.com/2015/03/23/us/politics/inclinton-emails-on-benghazi-a-rareglimpse-at-herconcems.html, exposed State’s deceit in this case.
At best, State’s attempt to pass-off its deficient
search as legally adequate during settlement
negotiations
was
negligence
born
out
of
incompetence. At worst, career employees in the State
and Justice Departments colluded to scuttle public
scrutiny of Clinton, skirt FOIA, and hoodwink this
Court.
The current Justice Department made things
worse. When the government last appeared before the
Court, counsel claimed “it’s [not] true to say we misled
either Judicial Watch or the Court.” 10/12/18 Tr. 15:68. When accused of “doublespeak,” counsel denied
vehemently, feigned offense, and averred complete
candor. 10/12/18 Tr. 16-17. When asked why State
masked the inadequacy of its initial search, counsel
claimed that the officials who initially responded to
Judicial Watch’s request didn’t realize Clinton’s
emails were missing, and that it took them two
months to “figure[] out what was going on” after the
former-Secretary-tumed-presumptive-presidentialcandidate delivered twelve bankers boxes of emails.
10/12/18 Tr. 14:7-11. When asked why it took so long
for State to own-up to the missing emails and to its
initial search’s deficiency, counsel cited “normal FOIA
practice.” 10/12/18 Tr. 41:21-22; see also 5/1/15 Status
Report at 6, ECF No. 16 (calling this “a run-of-the-mill
FOIA dispute”).

82a
Counsel’s responses strain credulity. And even
before this recent chicanery, the Court found enough
signs of government wrongdoing to justify discovery,
including into whether Clinton used her private email
to intentionally flout FOIA. See 3/29/16 Mem. &
Order, ECF No. 39. But the Court put-off setting a
specific discovery order, mindful of parallel
proceedings before Judge Sullivan, see Judicial
Watch, Inc. v. Dep’t of State, No. 13-1363, and ongoing
investigations by State’s Inspector General, the
Federal Bureau of lnvestigation, and the House Select
Committee on Benghazi. Since those inquiries
concluded, the Court now orders the parties to meet
and confer to develop a discovery plan into whether
Clinton used a private email to stymie FOIA, whether
State’s attempts to settle the case despite knowing its
initial search was inadequate amounted to bad faith,
and whether State's subsequent searches have been
adequate.
I. DISCUSSION
With the government investigations concluded
and discovery before Judge Sullivan winding down,
Judicial Watch sought to verify the adequacy and
good-faith of State’s search in this case with requests
for production and depositions bearing on States
responses to other inquiries. See Pl.’s Notice, ECF No.
50. For its part, State argued discovery is unnecessary
because of the discovery before Judge Sullivan and
the additional information made public since March
2016. See Def.’s Notice, ECF No. 51. Today the Court
orders the parties to develop a discovery plan limited

83a
to three issues: whether Clinton used a private email
to evade FOIA, whether State’s attempts to settle the
case despite knowing the inadequacy of its initial
search constituted bad faith, and whether State’s
subsequent searches for responsive records have been
adequate.
Although “[d]iscovery in FOIA is rare,” Baker &
Hostetler LLP v. Dep’t of Commerce, 473 F.3d 312,318
(D.C. Cir. 2006), “[t]he major exception ... is when the
plaintiff raises a sufficient question as to the agency’s
good faith in processing documents.” Landmark Legal
Found. v. E.P.A., 959 F. Supp. 2d 175, 184 (D.D.C.
2013) (quoting U.S. Dep’t of Justice, Guide to the
Freedom of lnformation Act 812 (2009)). In these
cases, discovery verifies the government adequately
searched for responsive records. See Weisberg v.
Webster, 749 F.2d 864, 868 (D.C. Cir. 1984).
But in an even rarer subset of these cases, the
government’s response to a FOIA request smacks of
outrageous misconduct. And these cases merit
additional discovery into the government’s motives.
E.g., Judicial Watch, Inc. v. Dep't of Commerce, 34 F.
Supp. 2d 28, 41 (D.D.C. 1998); see DiBacco v. U.S.
Army, 795 F.3d 178, 192-93 (D.C. Cir. 2015); cf
Flowers v. IR.S. , 307 F. Supp. 2d 60, 71 (D.D.C. 2004).
This is one of those cases. The Court takes no
pleasure questioning the intentions of the nation’s
most august executive departments. But it still
remains unknown whether Clinton used a private
email to duck FOIA requests. Indeed, that is the focus
of the remaining discovery before Judge Sullivan. See

84a
Mem & Order, Judicial Watch v. U.S. Dep’t of State,
No. 13-1363, at 12 (D.D.C. May 4, 2016), ECF No. 73.
State makes much of former FBI Director James
Comey’s response when Congressman Ron DeSantis
asked if Clinton used her private email to flout FOIA:
“I can’t say that. Our best information is she set it up
as a matter of convenience.” See Def.’s Notice Prop.
Order 10, ECF No. 51 (citing Oversight of the State
Department: Hearing Before the H Comm. on
Oversight & Gov’t Reform, 114th Cong. 20 (2016)).
But that’s not quite the full-throated refutation State
makes it out to be. Rather, telling Congress-under
penalty of perjury-what he couldn’t say for sure was
an understandably equivocal assessment of the
evidence at the time. It was not a conclusive
repudiation of what many people familiar with the
Presidential Records Act have long wondered. Take
the very first public story about Clinton using a
private email for official business, long before the
public knew its extent: When an easily overlooked
March 2013 hack of Clinton-confidante Sidney
Blumenthal’s AOL account exposed an official email
from Clinton’s private account, a Gawker article
speculated it was a one-off “attempt to shield her
communications with Blumenthal from the prying
eyes of FOIA requesters.” John Cook, Hacked Emails
Show Hillary Clinton Was Receiving Advice at a
Private Email Account/ram Banned, Obama-Hating
Former Staffer, Gawker (Mar. 20, 2013, 3:39 PM),
http://gawker.com/5991563/hacked-emails-showhillary-clinton-was-receiving-advice-at-aprivateemail-account-from-banned-obama-hating-formerstaffer. Or take Abedin’s response when State’s
Executive Secretary suggested Clinton use a

85a
government Blackberry so her email “would be
subject to FOIA requests”: “doesn’t make a whole lot
of sense.” E-mail from Huma Abedin to Stephen D.
Mull & Cheryl D. Mills (Aug. 30, 2012, 5: 17 PM),
appended to Pl. Judicial Watch’s Reply Supp. Mot.
Disc., Judicial Watch, Inc. v. US. Dep 't of State, No.
13-1363 (D.D.C. Jan. 22, 2016), ECF No. 51-3. Even
more telling is the State Department Inspector
General’s conclusion that although dozens of
department officials emailed Clinton’s personal
account, the employees responsible for FOIA
compliance didn’t know the account existed. Office of
lnspector Gen., Evaluation of the Department of
State’s FOIA Processes for Requests Involving the
Office
of
the
Secretary
14-15
(2016),
https://www.stateoig.gov/system/files/esp-16-01.pdf.
Nor can the Court blame Judicial Watch for
questioning whether State’s attempts to settle the
case while knowing it had not searched Clinton’s
missing emails-and continuing after State recovered
the emails-was an intentional effort to block their
release. Especially since State’s counsel came close to
admitting as much at the Court’s last hearing.
Counsel averred there was nothing wrong with
State’s attempt to pass-off its initial search as legally
adequate since, “at the time,” the Department
believed “items not in State’s possession d[id] not
need to be searched.” 10/12/18 Tr. 16:11-16. That
admission is significant for two reasons: Factually, it
implies State thought settling this case would absolve
the Department of any duty to search Clinton’s
missing emails in response to this request. And
legally, it is wrong. Though agencies need not

86a
retrospectively search records they failed to retain,
e.g., SafeCard Servs., Inc. v. S.E.C., 926 F.2d 1197,
1201 (D.C. Cir. 1991), agencies violate FOIA when
they fail to search records an employee improperly
secreted from the agency’s control. Judicial Watch,
Inc. v. US. Dep’t of Commerce, 34 F. Supp. 2d 28, 4244 (D.D.C. 1998); see also Kissinger v. Reporters
Comm.for Freedom of the Press, 445 U.S. 136, 159
(1980) (Brennan, J., concurring in part and dissenting
in part) (noting the majority’s suggestion “that an
agency would be improperly withholding documents
if it failed to take steps to recover papers removed
from its custody deliberately to evade an [sic] FOIA
request”).
Did State know Clinton deemed the Benghazi
attack terrorism hours after it happened,
contradicting
the
Obama
Administration’s
subsequent claim of a protest-gone-awry? See E-mail
from H, hrod17@clintonemail.com, to Diane Reynolds
(Sept.
11,
2012,
11:12
PM),
https://benghazi.house.gov/sites/republicans.benghaz
i.house.gov/files/documents/Tab%2050.pdf; see also
Nick Gass, Chelsea Clinton's Secret Identity, Politico
(Mar.
5,
2015,
7:57
AM),
https://www.politico.com/story/2015/03/chelseaclinton-diarie-reynolds-secret-email-115786
(establishing Diane Reynolds as an email pseudonym
for Chelsea Clinton). Did State know Clinton sent or
received top-secret information through her private
email? See Statement by FBI Director James B.
Comey on the Investigation of Secretary Hillary
Clinton’s Use of a Personal E-Mail System (July 5,
2016),

87a
https://www.fbi.gov/news/pressrel/pressreleases/state
ment-by-fbi-director-james-b-comey-on-theinvestigation-of-secretary-hillaryclinton2019suse-of-a-personal-e-mail-system (noting the FBI
recovered eight email chains from Clinton’s server
containing top-secret information). Did the
Department merely fear what might be found? Or was
State’s bungling just the unfortunate result of
bureaucratic redtape and a failure to communicate?
To preserve the Department’s integrity, and to
reassure the American people their government
remains committed to transparency and the rule of
law, this suspicion cannot be allowed to fester.
Nor is the government correct that Judicial
Watch’s proposal mimics information already made
public. As the government acknowledged at the recent
hearing, Judicial Watch’s request extends to all Office
of the Secretary employees. See 10/12/18 Tr. 19:3-6,
36:22-24. And according to State’s Obama-era
website, that includes not only the Secretary, her
chief of staff, and her deputy chief of staff, but also
her secretary, executive assistant, two special
assistants, scheduler, staff assistant, and two
personal assistants. See Bureaus/Offices Reporting
Directly to the Secretary, U.S. Dep’t St., https://20092017.state.gov/s/. To be sure, the government’s
investigations and scores of lawsuits examined the
emails Clinton turned over to State, e.g., Leopold v.
Dep’t of State, No. 15-123 (Contreras, J.), the
thousands more the FBI resurrected by forensically
searching Clinton’s private server, e.g., Leopold v.
Dep’t of Justice, No. 15-2117 (Moss, J.), and the
thousands more the FBI recovered during an

88a
unrelated investigation into Anthony Weiner. E.g.,
Judicial Watch, Inc. v. Dep’t of State, No. 15-684
(Howell, J.). 1 But State does not identify any
comparable examination of records from other Office
of the Secretary members. In fact, State even
concedes it has yet to search emails Mills, Abedin, and
Sullivan turned over in August 2015. See Def.’s Notice
Prop. Order 2.n.l. Moreover, the Court is unaware of
any public information shedding light on State’s
attempts to settle this case in late 2014 and early
2015. And though the parties must avoid duplicating
the discovery already taken before Judge Sullivan
into Clinton’s motives, prior discovery before another
judge does not per se preclude additional evidence
discoverable under this Court’s independent
judgment.

The FBI’s efforts were imperfect, since the FBI could not
recover all the emails Clinton deleted. When last appearing
before the Court, State strained to transplant into this case
another court’s conclusion under the Federal Records Act “that
the FBI has exhausted all imaginable investigative avenues” to
recover still-missing emails. Judicial Watch, Inc. et al. v.
Tillerson, 293 F. Supp. 3d 33, 31 (D.D.C. 2017) (Boasberg, J.).
Taking no position on the merits of that conclusion, the Court
notes first that the Federal Records Act employs a very different
standard than FOIA, requiring agencies take only more-thanminimal action to remedy federal record removal or destruction,
see Judicial Watch, Inc. et al. v. Tillerson, 156 F. Supp. 3d 69, 76
(O.O.C.) (Boasberg, J.) (citing Armstrong v. Bush, 924 F .2d
282,296 (D.C. Cir. 1991)), rev’d & remanded on other grounds,
844 F.3d 952 (D.C. Cir. 2016), and second that Judicial Watch
appealed the decision to the D.C. Circuit, which heard argument
last month. Judicial Watch, Inc. v. Pompeo, No. 17-5275.
1

89a
II. CONCLUSION
To see if it can rule out egregious government
misconduct and vindicate the public’s faith in the
State and Justice Departments, the Court orders the
parties to meet and confer to plan discovery into
whether Clinton used a private email to stymie FOIA,
whether State’s attempts to settle the case in late
2014 and early 2015 amounted to bad faith, and
whether State’s subsequent searches have been
adequate. The parties are to submit a proposed plan
and schedule for discovery within ten days. Once
discovery ends, the Court will determine the
adequacy of State’s searches and set a further
schedule for the submission of Vaughn affidavits and
dispositive motions. An accompanying order follows.
Date: December 6, 2018
/s/ Royce C. Lamberth
Royce C. Lamberth
United States District Judge

90a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Case No. 14-1242
____________________________
Judicial Watch, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
U.S. Department of State,
)
)
Defendant.
)
____________________________ )
MEMORANDUM AND ORDER
This matter comes before the Court on plaintiff’s
motion for limited discovery regarding the adequacy
of the State Department’s search for responsive
documents in this Freedom of Information Act case.
The Court set forth the proper legal standards for
such discovery in a prior case in which the
Environmental Protection Agency had excluded its
Administrator from a search of “senior official” files in
response to a FOIA request, did not search personal
e-mail accounts where official government business
was being conducted, and ultimately disclosed that
the Administrator was sending and receiving e-mails
in her dog’s name-which was not subject to the FOIA
search. See Landmark Legal Found. v. Envtl. Prot.
Agency, 959 F. Supp. 2d 175 (D.D.C. 2013). Where

91a
there is evidence of government wrong-doing and bad
faith, as here, limited discovery is appropriate, even
though it is exceedingly rare in FOIA cases.
An understanding of the facts and circumstances
surrounding Secretary Clinton’s extraordinary and
exclusive use of her “clintonemail.com” account to
conduct official government business, as well as other
officials’ use of this account and their own personal email accounts to conduct official government business
is required before the Court can determine whether
the search conducted here reasonably produced all
responsive documents. Plaintiff is certainly entitled
to dispute the State Department’s position that it has
no obligation to produce these documents because it
did not “possess” or “control” them at the time the
FOIA request was made. The State Department’s
willingness to now search documents voluntarily
turned over to the Department by Secretary Clinton
and other officials hardly transforms such a search
into an “adequate” or “reasonable” one. Plaintiff is not
relying on “speculation” or “surmise” as the State
Department claims. Plaintiff is relying on constantly
shifting admissions by the Government and the
former government officials. Whether the State
Department’s actions will ultimately be determined
by the Court to not be “acting in good faith” remains
to be seen at this time, but plaintiff is clearly entitled
to discovery and a record before this Court rules on
that issue.
The Court must observe that the Government
argues in its opposition memorandum (page 9) that
“the fact that State did not note that it had not

92a
searched Secretary Clinton’s e-mails when it
responded to Plaintiffs FOIA request ... was neither a
misrepresentation nor material omission, because
these documents were not in its possession and
control when the original search was completed.” The
Government argues that this does not show a lack of
good faith, but that is what remains to be seen, and
the factual record must be developed appropriately in
order for this Court to make that determination.
The Court does understand the Government’s
argument that the sheer volume of pending cases
involving these issues is a burden and the Court is
aware that Judge Sullivan has already ruled in
another case brought by this plaintiff against this
defendant-regarding other requested documents-that
he will authorize limited discovery. See Judicial
Watch v. Dept. of State, Civil Action No. 13-1363-EGS
(filed Sept. 10, 2013). Briefing is ongoing before Judge
Sullivan. When Judge Sullivan issues a discovery
order, the plaintiff shall-within ten days thereafterfile its specific proposed order detailing what
additional proposed discovery, tailored to this case, it
seeks to have this Court order. Defendant shall
respond ten days after plaintiff’s submission.
Plaintiff’s
GRANTED.

motion

for

limited

discovery

is

Defendant’s motion for summary judgment is
DENIED, without prejudice to filing a new motion
after authorized discovery is concluded.
It is so ORDERED.

93a
Date: March 29, 2016
/s/ Royce C. Lamberth
Royce C. Lamberth
United States District Judge

